<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2017 BUDGET FOR INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 114-528]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-528

       THE PRESIDENT'S FISCAL YEAR 2017 BUDGET FOR INDIAN COUNTRY

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 9, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
23-253 PDF                   WASHINGTON : 2017                      
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508">[email&#160;protected]</a>lp.com.  




                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 9, 2016....................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................    43
Statement of Senator Daines......................................    44
Statement of Senator Franken.....................................    50
Statement of Senator Heitkamp....................................    46
Statement of Senator Hoeven......................................    52
Statement of Senator Murkowski...................................    48
Statement of Senator Tester......................................     1

                               Witnesses

Mason, Hon. Karol V., Assistant Attorney General, Office of 
  Justice Programs, U.S. Department of Justice...................     3
    Prepared statement...........................................     5
Payment, Hon. Aaron, Recording Secretary, National Congress of 
  American Indians...............................................    27
    Prepared statement...........................................    29
Ramirez, Lourdes Castro, Principal Deputy Assistant Secretary, 
  Office of Public and Indian Housing, U.S. Department of Housing 
  and Urban Development..........................................    15
    Prepared statement...........................................    17
Roberts, Lawrence S., Acting Assistant Secretary--Indian Affairs, 
  U.S. Department of the Interior................................     9
    Prepared statement...........................................    10
Smith, Mary, Principal Deputy Director, Indian Health Service, 
  U.S. Department of Health and Human Services...................    23
    Prepared statement...........................................    24

                                Appendix

Response to written questions submitted by Hon. James Lankford 
  to:
    Lawrence S. Roberts..........................................    66
    Mary Smith...................................................    61
Response to written questions submitted by Hon. John McCain to 
  Mary Smith                                                         65

 
       THE PRESIDENT'S FISCAL YEAR 2017 BUDGET FOR INDIAN COUNTRY

                              ----------                              


                        WEDNESDAY, MARCH 9, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order.
    Today the Committee will examine the President's fiscal 
year 2017 Indian Country budget.
    The United States continues to face a Federal deficit and 
tight budgets. The funding provided to Indian people and Native 
communities is an important Federal responsibility.
    The President's fiscal year 2017 budget request calls for 
increases for tribal-related programs, including the Bureau of 
Indian Affairs and the Indian Health Service. Whatever funding 
is provided for these tribal-related programs, it must be used 
effectively, efficiently, and be responsible in fulfilling 
Federal responsibilities.
    Let me be clear, funding must reflect performance metrics. 
It is imperative that the Executive Branch provide Congress 
with the necessary data to support these funding requests. 
Today, we will hear from key Federal agencies that serve Indian 
Country.
    Before we hear from the witnesses present today, I want to 
recognize the Vice Chairman for an opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to thank the panelists who are here today, with a 
special thank you to Mary Smith. I appreciate your endurance 
from the Committee hearing earlier with Senator Daines and I. 
Thank you for being here.
    I want to commend the Administration for submitting a 
budget that details how the Federal Government will attempt to 
support Indian Country's priorities. I am looking forward to 
hearing from our witnesses today and discussing how we can work 
together to meet our commitments to tribes.
    If there is one thing I think we should all agree on it is 
that the challenges facing Indian Country cannot be addressed 
when Native programs are severely underfunded.
    It is vital that we address the deficit and I am committed 
to doing that but I also strongly believe that we cannot 
balance the budget on the back of Indian Country. We must 
fulfill our treaty and trust obligations by adequately funding 
tribal programs.
    This year, the Administration has requested modest 
increases for many Native American programs. Overall, these 
funds have a significant impact on initiatives that advance 
tribal sovereignty and invest in the overall well being of 
tribal communities.
    While increased funding is, I believe, a step in the right 
direction, we all know there are substantial unmet needs in 
Indian Country. The Department of the Interior has requested 
$2.9 billion for Indian affairs, an increase over 2016 enacted 
levels.
    Interior again has focused its attention on Native youth. 
Among other things, we are proposing $138 million for school 
construction. It is good the Administration has continued to 
focus on this issue but the department needs to provide more 
details on its plans for using those requested funds.
    Adequate funding only helps if the agency has a well 
thought out plan to use the money. That sounds familiar.
    Last month, I introduce the Safety Act which would require 
the BIA to develop a ten-year plan for school construction. I 
would love to hear your thoughts on that or any similar plans 
the department may have.
    With health care, even though the IHS has seen a 43 percent 
over the past eight years, it is still underfunded by nearly 50 
percent, in my opinion. IHS will never be successful unless we 
provide the funds needed to treat people. The Administration's 
request to continue prioritizing IHS funding is a step forward.
    The budget also proposes an increase of over $100 million 
for Native American programs at the Department of Justice. We 
recently heard from tribes about public safety issues affecting 
their communities. I look forward to hearing more about how the 
initiatives funded by this increase would assist tribes in 
dealing with reservation crime.
    HUD has requested a $50 million increase for the Native 
American housing block grant, an increase more than justified 
when adjusting for inflation alone. The Block Grant Program has 
been relatively level for the last 20 years. While I do agree 
with my colleagues that HUD must release its updated Housing 
Needs Assessment, one just has to drive through a tribal 
community to know that more funds are needed.
    This increase would help reduce the severe backlog that 
faces many tribal housing authorities. Overcrowding has 
devastating ripple effects, so we need to get serious about 
housing conditions in Indian Country.
    I recognize not everyone in this room has the same funding 
priorities or the same approach to tackling the challenges 
affecting Indian Country, but I still hope today's hearing will 
open a discussion on how we can come together and find 
solutions to fulfill this Country's trust and treaty 
obligations.
    With that, once again, I want to thank the witnesses and I 
want to thank the Chairman for holding this hearing.
    The Chairman. Thank you, Senator Tester.
    Would any other members like to make an opening statement?
    [No audible response.]
    The Chairman. Today we will be hearing from: The Honorable 
Karol Mason, Assistant Attorney General, Office of Justice 
Programs, U.S. Department of Justice; Mr. Lawrence S. Roberts, 
Acting Assistant Secretary for Indian Affairs, Office of 
Assistant Secretary, U.S. Department of the Interior; Ms. 
Lourdes Castro Ramirez, Principal Deputy Assistant Secretary, 
Office of Public & Indian Housing, U.S. Department of Housing 
and Urban Development; Ms. Mary Smith, Principal Deputy 
Director, Indian Health Service, U.S. Department of Health and 
Human Services; and The Honorable Aaron Payment, Secretary, 
National Congress of American Indians.
    I would like to remind the witnesses that your full written 
testimony will be made a part of the official hearing record 
today. Please try to keep your statements to five minutes so 
that we may have time for questions.
    I look forward to hearing the testimony of each of you 
beginning with Assistant Attorney General Mason. Please 
proceed.

     STATEMENT OF HON. KAROL V. MASON, ASSISTANT ATTORNEY 
           GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. 
                     DEPARTMENT OF JUSTICE

    Ms. Mason. Thank you, Chairman Barrasso, Vice Chairman 
Tester and distinguished members of the Committee.
    I am very pleased to represent the Department of Justice 
and to have this opportunity to discuss the President's fiscal 
year 2017 budget request for public safety initiatives in 
Indian Country.
    From the earliest days of this Administration, I have been 
privileged to work with dedicated employees from the department 
to help our tribal partners insure the safety and health of 
their communities.
    One of my proudest accomplishments as Deputy Associate 
Attorney General was leading the team that created our 
Coordinated Tribal Assistance Solicitation or CTAS which has 
opened up unprecedented funding opportunities for tribes.
    Now, as Assistant Attorney General, I am directly 
responsible for a full array of programs designed to improve 
tribal justice and victim services. I am pleased to say, 
without hesitation, that the Justice Department's commitment to 
tribes has never been stronger.
    Across the public safety landscape, from law enforcement 
and litigation to funding and the protection of Native 
resources, our engagement with tribes is dynamic and robust. 
That commitment is embodied in CTAS which enables tribes to 
submit a single application for a wide range of tribal-specific 
government programs covering areas like community policing, 
substance abuse, correction alternatives and violence against 
women just to name a few.
    Since 2010, the department has awarded more than 1,400 
grants totaling over $620 million to hundreds of tribal 
communities. I refer you to my written statement for more 
specific examples of our successes in Indian Country.
    Many tribal communities have made great progress very often 
by adapting traditional methods to contemporary challenges. 
However, as this Committee is well aware, those challenges 
remain considerable.
    American Indians and Alaska Natives continue to be 
victimized at high and in some cases, alarming rates. Complex 
jurisdictional patterns still too often hamper investigations 
and impede justice. Resources remain scarce.
    The report by the Tribal Law and Order Commission noted the 
need for almost 3,000 tribal law enforcement officers, a 50 
percent staffing shortfall. That is why the resources requested 
in the President's budget are vital.
    Excluding funding for prisons, the budget allocates almost 
$300 million for public safety activities in Indian Country. 
This level of funding would be historic and would allow us to 
build on our progress and make inroads into solving the 
enduring and intractable problems faced by our tribal partners.
    For one thing, the budget would take a page from CTAS and 
dedicate significant funding to tribal specific initiatives. A 
flexible tribal grant 7 percent setaside of programs for my 
office would give tribe's reliable access to $111 million in 
grant resources.
    This would remove some of the unpredictability and anxiety 
around competition for Federal funding for which under-
resourced tribes are often at a distinct disadvantage.
    The President's budget proposes to make targeted 
investments as well. $25 million from the Crime Victim's Fund 
would be devoted to meeting the needs of Native American 
victims who, as I mentioned, remain chronically underserved.
    Funds from the department's Office for Community Oriented 
Policing Services would help hire law enforcement officers, 
train and equip them to protect their communities and $56 
million from the Office of Violence Against Women would support 
a variety of efforts aimed at reducing domestic violence, 
dating violence, sexual assault, sex trafficking and stalking 
in Indian Country.
    A portion of those funds would expand on a ground breaking 
program that has reversed decades of injustice by giving tribes 
the authority to adjudicate domestic violence, dating violence 
and protection against violence cases against non-Indian 
defendants on tribal lands.
    The Justice Department's work extends well beyond funding. 
Our U.S. Attorney offices have established close working 
relationships with tribes and an active Subcommittee on Native 
American Issues composed of U.S. attorneys provides advice and 
counsel to the Attorney General.
    We are training tribal prosecutors and bringing them on to 
support prosecution in Federal court. We are working to resolve 
trust mismanagement claims and protect tribal lands and tribal 
sovereignty. In all these efforts, we closely coordinate our 
efforts with our Federal partners to make sure we are 
maximizing resources and meeting every public safety need in 
Indian Country.
    The Department of Justice is working hard across its 
components and across other agencies to give our tribal 
partners the resources they need to achieve justice in their 
communities but there is no substitute for Federal dollars. 
Public safety in Indian Country is an investment we cannot 
afford to forego.
    The President's budget request represents a thoughtful and 
comprehensive strategy for supporting tribal justice, juvenile 
justice and victim services. The Department of Justice looks 
forward to working with the Committee to fulfill our share of 
responsibilities to our tribal partners and to meet our 
collective goal of safer tribal communities.
    I look forward to your questions.
    [The prepared statement of Ms. Mason follows:]

Prepared Statement of Hon. Karol V. Mason, Assistant Attorney General, 
         Office of Justice Programs, U.S. Department of Justice
    Chairman Barrasso, Vice-Chairman Tester, and members of the 
Committee:
    Thank you for inviting the Department of Justice to testify 
regarding the substantial support that the President's FY 2017 Budget 
requests for the Department of Justice for public safety initiatives in 
Indian country. I am Karol Mason, Assistant Attorney General for the 
Department of Justice's Office of Justice Programs (OJP). Among my many 
responsibilities are overseeing tribal grant programs and other efforts 
to improve tribal criminal and justice systems and help tribal victims 
of crime. Tribal justice has been a critical priority for me during my 
time in the Administration, both in my current service at OJP and in my 
prior work for the Department's Office of the Associate Attorney 
General.
    The Justice Department's commitment to supporting our tribal 
partners has never been stronger. From law enforcement to litigation to 
funding, our engagement with tribes has never been more dynamic or more 
robust. Resources available through the Tribal Law and Order Act (TLOA) 
of 2010 and the Violence Against Women Reauthorization Act of 2013, 
coupled with other substantial public safety investments from across 
the Department throughout this Administration, have resulted in an 
unprecedented level of engagement, coordination, and action on behalf 
of public safety in Indian country.
Current Efforts
    Improving public safety among tribal communities continues to be a 
top priority for the Department and OJP. In FY 2010, as a result of 
consultation with tribes, the Department launched the Coordinated 
Tribal Assistance Solicitation (CTAS), which offers a comprehensive, 
streamlined application process encompassing most of our available 
tribal government-specific grant programs. Through CTAS, the Department 
has awarded over 1,400 grants totaling more than $620 million to 
hundreds of tribal communities. CTAS grantees invest in a variety of 
public safety-related purpose areas including community policing; 
justice systems planning; alcohol and substance abuse; corrections and 
correctional alternatives; violence against women; tribal youth 
programs; juvenile justice; and crime victims' assistance.
    In addition to CTAS, many DOJ components provide other tribal-
specific programs. OJP's Bureau of Justice Assistance's (BJA) Tribal 
Civil and Criminal Legal Assistance Program (TCCLA) provides grants 
training, and technical assistance to support federally recognized 
tribal nations in enhancing their tribal justice systems and improving 
access to those systems. TLOA reinforced the provisions of TCCLA which 
authorize the provision of legal defense services to all defendants in 
tribal court criminal proceedings and prosecution, judicial services 
for tribal courts, and capacity building to tribes and tribal justice 
systems. BJA has also invested in tribal-state collaborative efforts 
such as joint jurisdictional courts. For example, one such court 
originated in Minnesota between the Leech Lake Band of Ojibwe and Cass 
County and expanded to Itasca County. This court has been operating for 
a decade, and an evaluation has shown promising results. Graduates of 
the joint jurisdictional court in Itasca County between 2007 and 2014 
avoided at least 8,000 days in jail, and the total economic value of 
these positive outcomes is estimated at over $2 million.
    OJP's Office of Juvenile Justice and Delinquency Prevention (OJJDP) 
worked with the Bureau of Indian Affairs to update the Model Indian 
Juvenile Code, which helps federally recognized tribes create 
individual codes focused on juvenile matters. The Code, which was 
released just last week, specifically addresses issues affecting tribal 
youth arrested for alcohol and/or drug-related offenses in Indian 
country. It follows through on one of the recommendations listed in 
Ending Violence So Children Can Thrive, the report developed by the 
Attorney General's Advisory Committee on American Indian/Alaska Native 
Children Exposed to Violence. OJJDP also stands ready to work with the 
Committee on appointing a tribal member to the federal Coordinating 
Council on Juvenile Justice and Delinquency Prevention, as provided for 
under TLOA.
    OJP's Office for Victims of Crime (OVC), through its Vision 21 
Initiative, is leading a nationwide effort to expand the vision and 
impact of the victim assistance field in the 21st century. In FY 2015 
OVC funded Vision 21: Tribal Victim Services Resource Mapping Project, 
which addresses a critical barrier for tribal crime victims from 
seeking services--a lack of information. Our grantee, the National 
Center for Victims of Crime (NCVC), is collecting information about 
services available to American Indian and Alaskan Native crime victims 
at all levels--tribal, state, regional and federal. NCVC will then use 
this data to develop a state-of-the-art mapping and referral tool, 
which will be available to the public and service providers alike.
    As this Committee is aware, American Indians and Alaska Natives 
experience high rates of violence, particularly domestic violence and 
sexual assault against Native women. Next month, OJP's National 
Institute of Justice (NIJ) will release a new study about violence 
against American Indian and Alaska Native women and men. The report 
provides estimates of sexual violence, physical violence by intimate 
partners, stalking, and psychological aggression by intimate partners. 
We will share the findings as soon as they are available, but I am 
aware that the research confirms what we have long suspected about the 
high rate of victimization. NIJ is also working on another study, 
expected for 2017, about domestic violence, sexual assault, and 
stalking committed against Indian women living in tribal lands and 
Alaska Native villages. In addition, NIJ is examining Alaska Village 
Public Safety Officers' response to violence against Indian women.
    OJP's Bureau of Justice Statistics (BJS) is addressing how to best 
measure crime on tribal lands. This task is complicated by federal, 
state, local and tribal justice systems that have overlapping 
jurisdiction for these crimes. In order to build a more complete 
picture of the crime problem on tribal lands, BJS is implementing an 
expanded set of data collections involving federal, state, local and 
tribal law enforcement agencies and prosecutor offices. This 
information will provide decision makers with a far better assessment 
of crime on tribal lands than has been available to them previously.
    In August 2015, OJP's SMART Office worked with the Department's 
Justice Management Division and Office of Tribal Justice (OTJ) to 
launch the Tribal Access Program (TAP) which provides federally 
recognized tribes the ability to access and exchange data with national 
crime information databases, such as those managed by the Federal 
Bureau of Investigation, for both civil and criminal purposes.. This 
new program helps fulfill DOJ's obligation to support tribes' 
implementation of the Sex Offender Registration and Notification Act 
(SORNA), TLOA and the Violence Against Women Act. TAP is heavily 
informed and driven by the needs of tribes and the Department's 
commitment to ensuring tribes' consistent access to critical crime 
data. The SMART Office also continues to tailor and expand its work 
with tribal nations working to implement SORNA. To date 99 tribal 
jurisdictions have substantially implemented SORNA and many more are 
continuing work towards that goal. In addition, the SMART Office 
designed and supports a project identifying best practice resources for 
the treatment, management, and reentry of Native American adults and 
juveniles who have committed sex offenses. As a result of TLOA, our 
partners at the Office of Community Oriented Policing Services (COPS 
Office) have made significant improvements to the Tribal Resources 
Grant Program (TRGP), eliminating local matches, allowing indirect 
costs, and expanding allowable costs. The COPS Office also provides 
publication resources and training and technical assistance to tribal 
law enforcement--such as the publication, Successful Tribal Community 
Policing Initiatives, which highlights 15 tribes' community policing 
efforts around alcohol and substance abuse, gangs, partnerships, and 
other topics.
    The Department's Office on Violence Against Women (OVW) has funded 
several technical assistance projects to support tribal grantees under 
CTAS, as well as tribal coalitions and sexual assault service 
providers. For example, to address the shortage of legal representation 
for American Indian and Alaska Native sexual assault survivors, OVW 
funded a certification course for lay advocates representing survivors 
in tribal courts. The course combines distance learning and a week-long 
trial advocacy institute conducted by the National Tribal Trial College 
in collaboration with the University of Washington School of Law. 
Similarly, OVW supports training for advocates on the litigation of 
civil protection orders for Native survivors of domestic and sexual 
violence and on addressing the unique legal and service needs of Native 
victims with disabilities. In 2015, OVW also supported a tribal 
listening session and site visits with tribal communities receiving 
Abuse in Later Life Program grants to develop a guide to assist tribes 
in addressing elder abuse, taking into account their unique 
circumstances and culture.
    The Department's other responsibilities in Indian country have also 
expanded, and the priorities identified by the Attorney General have 
led to a number of new initiatives and enhancements. Senior 
Departmental leadership holds regular meetings with tribes through the 
Tribal Nations Leadership Council and has pursued interagency 
collaboration with the Departments of the Interior and Health and Human 
Services to promote compliance with the Indian Child Welfare Act.
    Each U.S. Attorney's Office with Indian country jurisdiction has 
developed a specific plan to address tribal public safety challenges 
and has assigned at least one Assistant United States Attorney (AUSA) 
to serve as the Tribal Liaison. The Tribal Liaison exercises an 
important role in helping to facilitate communication between the 
United States Attorney's Office, federal law enforcement partners, 
tribal leaders, tribal law enforcement officers, and members of the 
tribal communities. AUSAs who serve as Tribal Liaisons are among the 
most skilled, dedicated and accomplished attorneys in our nation. In 
addition, the Department's enhanced Tribal Special Assistant U.S. 
Attorney (SAUSA) Program fosters coordination between federal 
prosecutors and their tribal counterparts. The Tribal SAUSA program, 
serves as an important tool, contributing to improved collaboration. 
Tribal SAUSAs, who are cross-deputized tribal prosecutors, receive 
training in federal criminal law, procedure, and investigative 
techniques and are able to prosecute crimes in both tribal court and 
federal court as appropriate. Moreover, OVW has funded four tribal 
prosecutors through its Violence Against Women Tribal SAUSA Pilot 
Project, who serve as Tribal SAUSAs specially dedicated to prosecuting 
cases of domestic violence and sexual assault in both tribal and 
federal courts. The Tribal SAUSAs strengthen a tribal government's 
ability to fight crime and increase the USAO's coordination with tribal 
law enforcement personnel. The work of Tribal SAUSAs also helps to 
accelerate a tribal criminal justice system's implementation of TLOA 
and VAWA 2013.
FY 2017 Budget Request
    The FY 2017 President's Budget for the Department of Justice 
requests $420 million in total resources to address public safety in 
Indian country, or $297 million excluding funding for the Bureau of 
Prisons. If enacted, this budget would represent a historic level of 
funding for tribal communities.
    The Budget's investments support activities across many Department 
of Justice components and address a range of criminal and civil justice 
issues facing Native American communities. The Budget includes 
significant and versatile grant funding totaling $230 million, an 
increase of 87 percent over FY 2016 enacted levels.
    I am proud that the FY 2017 Budget request for OJP includes $111 
million in discretionary resources for Indian country that would build 
on CTAS by providing a consistent source of significant, tribal-
specific grant funding flexibly directed at tribes' most important 
criminal justice priorities. As in previous budget requests made during 
this Administration, this funding would come via the Flexible Tribal 
Grant seven percent set-aside from all OJP programs (excepting the 
Crime Victims Fund and the Public Safety Officers' Benefits programs).
    OJP also requests $25 million from the Crime Victims Fund to 
support tribal assistance for victims of violence, who, despite our 
long-standing efforts, remain chronically underserved. The funding 
would further expand OVC's efforts to develop evidence-based, 
culturally appropriate victims' services programs for the nation's 
tribal communities.
    The Budget also includes $38 million for the COPS TRGP Program, an 
$8 million increase over the FY 2016 level. The Indian Law and Order 
Commission's (ILOC) Report noted a nearly 3,000 officer shortfall when 
tribal law enforcement agencies are compared to national averages. The 
Budget will also address the high demand for equipment, including 
vehicles, radios, laptops, and communications and records systems.
    Within the $8 million increase, $3 million would facilitate tribal 
access to national crime information databases. This increase supports 
the Department's TAP Program for National Crime Information, which, as 
noted, allows tribes to more effectively serve and protect their tribal 
members by ensuring the exchange of criminal data across systems, such 
as those managed by the Criminal Justice Information Services Division 
of the Federal Bureau of Investigation.
    The FY 2017 President's Budget for the Office on Violence Against 
Women (OVW) includes approximately $56 million in total funding to 
support programs and initiatives that work to prevent and address 
domestic violence, dating violence, sexual assault, sex trafficking, 
and stalking in Indian country, including $39 million in set-asides 
from seven OVW grant programs for the Grants to Indian Tribal 
Governments Program. This program is part of CTAS and funds tribes to 
develop a comprehensive, multi-faceted response to violence against 
Indian women, including strengthening tribal criminal justice systems, 
improving services for victims, and creating community education and 
prevention campaigns. With increased funding, OVW awards could support 
more tribes in their efforts to provide holistic services to victims 
and to hold people who commit crimes accountable.
    OVW is requesting approximately $7 million, through set-asides, for 
the Tribal Domestic Violence and Sexual Assault Coalitions Grant 
Program, which supports the development and operation of nonprofit, 
nongovernmental tribal coalitions to provide technical assistance to 
member Indian service providers and enhance the federal, state, and 
tribal response to violence against Indian women. These funds allow 
tribal coalitions to participate more fully in coordinated efforts to 
address violence against native women and help communities develop 
culturally appropriate responses.
    OVW's request includes a $3.5 million set-aside from its Sexual 
Assault Services Program to support direct services for victims of 
sexual assault and their families in Indian country and Alaska Native 
villages, including intervention, advocacy, and accompaniment to places 
such as courts, medical facilities, and police departments.
    OVW is also requesting $5 million, a $2.5 million increase over FY 
2016, for the Tribal Special Domestic Violence Criminal Jurisdiction 
Program, which would support tribal efforts to exercise ``special 
domestic violence criminal jurisdiction'' over non-Indians who commit 
violence against their Indian spouses, intimate partners, or dating 
partners, or who violate protection orders, in Indian country. In FY 
2016, Congress first appropriated $2.5 million for this new Tribal 
Jurisdiction Program. OVW is currently developing a solicitation for 
the program but expects that tribal demand will far exceed available 
funding, and that, in this first year of funding, at least 50 tribes 
may apply. Currently, 45 tribes participate in the Inter-Tribal 
Technical-Assistance Working Group (ITWG) on Special Domestic Violence 
Criminal Jurisdiction. OVW expects that all or most ITWG members are 
candidates for the new funding, in addition to some number of tribes 
that have not yet joined the ITWG. Moreover, tribes wishing to exercise 
this new jurisdiction will need grant funding to address a host of new 
activities, including updating criminal codes, providing counsel for 
indigent defendants, expanding jury pools, and addressing increased 
costs for law enforcement, pre-trial services, prosecution, courts, 
probation, incarceration, parole and victim services. With additional 
funding in FY 2017, the Department expects that even more tribes will 
be able to replicate the successes of the first ``pilot project'' 
tribes, each of which has demonstrated the ability of tribal criminal 
justice systems to hold people who commit crimes accountable and keep 
their communities safe. In addition, the OVW's request also includes 
language that would authorize the Attorney General to use $3.9 million 
in funds previously appropriated to create tribal sex offender and 
protection order registries to support the TAP Program. The proposal to 
use these funds for the Tribal Access Program was developed after 
consultation with tribal leaders, who stated that facilitating tribal 
access to federal databases would be more valuable than creating 
separate tribal registries for sex offenders and protection orders.
    In addition to new grant funding, the Environment and Natural 
Resources Division is requesting an increase of $1.5 million for an 
additional four attorneys to support environmental enforcement on 
tribal lands. This request will promote increased federal and tribal 
litigation of environmental violations in Indian country, particularly 
in response to the rapid expansion of oil and gas extraction on Indian 
lands in the last decade and its impact on public health and surface 
and drinking water quality.
    Also, OTJ requests $240,000 in new resources for one additional 
attorney position to ensure that the Department meets its Indian 
country consultation and coordination responsibilities.
    In addition to the Department's efforts to consistently consult 
with tribal leaders to craft and implement policies that work for 
tribes and empower tribal governments, investments in federal agents, 
prosecutors, and grant programs remain critically important to 
protecting tribal communities. Appropriators must consider many 
competing priorities for scarce taxpayer dollars, but public safety in 
Indian country is an investment that we cannot afford to forgo.
    The FY 2017 President's Budget request for the Department of 
Justice represents a major commitment to addressing the public safety 
issues afflicting tribal communities, and maintains the federal 
government's promise to fulfill its trust responsibility to Indian 
country.
    The Department thanks the Committee for its interest in these 
critical issues and for its support of our tribal partners.

    The Chairman. Thank you very much for your testimony.
    Mr. Roberts.

 STATEMENT OF LAWRENCE S. ROBERTS, ACTING ASSISTANT SECRETARY--
        INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Roberts. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester, and members of the Committee. I want to thank 
you for the opportunity to testify today. It is an honor for me 
to be here before you all as Acting Assistant Secretary for 
Indian Affairs.
    I want to begin by thanking each and every one of you on 
the Committee for your dedication to Indian Country. I know 
that you work every day to educate your colleagues on the 
challenges faced by tribes and the importance of upholding 
trust and treaty obligations.
    I want to begin by reflecting on our collective work and 
how it has, particularly with tribal leadership, made a 
difference in Indian Country.
    In fiscal year 2008, appropriations for Indian Affairs was 
$2.9 billion, a $17 million decrease from fiscal year 2007. 
Budgets were steadily shrinking for Indian Affairs and tribes 
and career employees were being asked to do more with less.
    There is no doubt that today's budget climate remains 
difficult. The Washington Post reported that the President's 
budget increased discretionary spending overall by less than 
one percent.
    Unlike the rest of the discretionary budget, the 
President's budget request for Indian Affairs reflects a 4.9 
percent increase over 16 enacted levels.
    When compared with 2008 to today, Indian Affairs' proposed 
budget of $2.9 billion, a nearly $138 million increase over 
fiscal year 2016, I think we can collectively agree that strong 
bipartisan support for budgets is there to foster self-
determination in strong tribal communities.
    The increase in appropriations and successes in Indian 
Country is due in large part to the work of tribal leaders. 
Since 2008, our career staff has decreased by approximately 
1,600 employees. That is nearly 17 percent of Indian Affairs' 
work force.
    We have seen that whether it is a direct service tribe or a 
self-governance tribe, tribal leadership has proven that with 
increased funding, they can deliver results. We have seen the 
reduction in violent crime through focused resources in certain 
communities. We have seen it in the reduction in recidivism and 
we have seen progress in the TIWAHE Program.
    The President's proposed budget builds on Indian Country's 
work through careful coordination with the tribes through our 
Tribal Interior Budget Council. The President's budget includes 
full funding for contract support costs and proposes that it be 
mandatory for funding beginning in fiscal year 2018.
    The 2017 budget proposes a $21 million increase to support 
TIWAHE objectives including $12.3 million for social services, 
a $3.4 million increase for Indian Child Welfare Act programs 
and an additional $1.7 million to improve access to suitable 
housing.
    The President's budget reflects the need to invest in 
Indian families and promote safe communities at the outset that 
provide an environment that removes those barriers to success 
for our Native youth and young adults. The fiscal year 2017 
budget includes investments in education through scholarships 
and increased funding for Haskell, SIPI, United Tribes 
Technical College and the Navajo Technical University.
    It proposes a $1.1 billion budget for BIE. The BIE is 
focused on serving as a capacity builder and service provider 
to support tribes and schools in educating their youth and 
delivering a world class and culturally appropriate education 
across Indian Country. The budget proposes full funding of 
tribal grant support costs for tribes that choose to operate 
BIE-funded schools to serve their students.
    Finally, the budget provides $138 million for education 
construction programs to replace and repair schools and 
facilities in poor condition and to address deferred 
maintenance needs at the 183 campuses in the BIE school system. 
The 2017 request for BIE school construction continues the 
momentum launched with the fiscal year 2016 appropriation and 
provides funding stability necessary to develop an orderly 
construction pipeline.
    The President's budget continues the funding in fiscal year 
2016 for the Indian Energy Service Center. The Center will 
expedite leasing, permitting and reporting for conventional and 
renewable energy projects on Indian lands and provide the 
resources to ensure that development occurs safely and 
appropriately manages risk.
    The department is working with tribes to promote 
cooperative management. The President's budget requests a $2 
million increase to address subsistence management in Alaska. 
The funding will target areas across the State that promote 
tribal cooperative management for fish and wildlife and improve 
access to subsistence resources on Federal lands and waters.
    I will close by saying in this difficult fiscal climate, 
the fiscal year 2017 budget proposes increases for Indian 
Affairs. At nearly $138 million above the 2016 enacted levels, 
Indian Affairs is the second largest total requested budget 
increase of any bureau within the Department of Interior.
    I know with your bipartisan support and leadership the 
Federal budget for Indian Country will continue to foster self-
determination.
    I am happy to appear before you today and I am happy to 
answer any questions you may have.
    [The prepared statement of Mr. Roberts follows:]

Prepared Statement of Lawrence S. Roberts, Acting Assistant Secretary--
            Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Committee. Thank you for the opportunity to provide a statement 
on behalf of the Department of the Interior on the President's Budget 
Request for Indian Affairs for Fiscal Year (FY) 2017. The FY 2017 
budget request for Indian Affairs programs totals $2.9 billion, which 
is $137.6 million more than the FY 2016 enacted level.
    Within Indian Affairs, our funding priorities are guided by careful 
coordination with tribes through a regional-to-national planning 
process through the Tribal Interior Budget Council. These and other 
sources of tribal input have informed legislative and programmatic 
initiatives and funding priorities in the FY 2017 budget, including 
full funding for contract support costs and a proposal to fund contract 
support costs through a mandatory account beginning in FY 2018.
    The Indian Affairs budget provides significant increases across a 
wide range of Federal programs that serve tribes and supports improved 
tribal access to Federal program and resources. Indian Affairs plays a 
unique and important role in carrying out the Federal trust 
responsibility and in serving tribes. The budget makes the most out of 
each dollar dedicated to Indian Country programs by proposing further 
development of a one-stop shop approach for facilitating tribal access 
to Federal funds and programs across the U.S. government.
Supporting Indian Families and Protecting Indian Country
    Supporting Indian families and ensuring public safety are top 
priorities for the President and tribal leaders. As part of the 
President's commitment to protect and promote the development of 
prosperous tribal communities, BIA will continue to expand the Tiwahe 
initiative. Tiwahe, which means family in the Lakota language, promotes 
a comprehensive, integrated and community-based approach to support 
child welfare, family stability, and strengthening tribal communities 
as a whole. The initiative directly supports the President's Generation 
Indigenous initiative launched in 2014 to address barriers to success 
for Native youth by leveraging BIA programs in concert with other 
Federal programs supporting family and community stability and cultural 
awareness.
    Children living in poverty are far more likely to be exposed to 
violence and psychological trauma, both at home and in the surrounding 
community. Many Indian communities face high rates of poverty, 
substance abuse, suicide, and violent crime, leading to serious and 
persistent child abuse and neglect issues. Child maltreatment often 
leads to disrupted extended family support networks and broken families 
when children are placed outside the community. Solutions lie in 
addressing the interrelated problems of poverty, violence, and 
substance abuse faced by many communities to help improve the lives and 
opportunities of Indian families. This requires tribally-initiated 
coordination of social service programs; steps to maintain family 
cohesiveness; preparation of family wage earners for work 
opportunities; and rehabilitative alternatives to incarceration for 
family members with substance abuse issues.
    Currently, four tribal communities (the Ute Mountain Ute Tribe, 
Colorado; the Spirit Lake Tribe, North Dakota; the Association of 
Village Council Presidents (AVCP), Alaska; and the Red Lake Nation, 
Minnesota) are participating in the Tiwahe initiative as the initial 
pilot sites. The BIA will be adding two additional sites in FY 2016.
    The Ute Mountain Ute Tribe has developed a ``Tour de Ute'' 
concept--a ``one stop'' Tiwahe Center that centralizes services at Ute 
Mountain Ute. The Center will provide culturally relevant services 
which incorporate tribally specific practices, traditions and 
approaches for intervention and prevention. The Ute Mountain Ute's 
Tiwahe team also supported production of a short film entitled 
``Escape,'' which was made by Ute Mountain Ute youth and which 
discusses serious issues faced by tribal youth, such as bullying, 
identity, and suicide. The film premiered in Durango, Colorado in 
October of 2015 and was also screened later in the fall at the LA SKINS 
FEST, a film festival in Los Angeles, California.
    Further, the BIA Division of Human Services, through a partnership 
with selected Schools of Social Work, is creating a Center for 
Excellence. The Center will provide opportunities for learning, cross-
training, and information sharing for tribes in the areas of 
leadership, best practices, research, support and training. 
Additionally, the Center for Excellence will allow Tiwahe tribes the 
opportunity to train other tribes and tribal organizations on a 
comprehensive approach for a coordinated service delivery model. Tiwahe 
tribes will also be able to share best practices and lessons learned 
from implementation of year one and two of the Tiwahe Initiative.
    The FY 2017 budget proposes $21.0 million in program increases to 
support Tiwahe objectives, including $12.3 million for social services 
programs to provide culturally-appropriate services with the goal of 
empowering individuals and families through health promotion, family 
stability, and strengthening tribal communities as a whole. The budget 
also includes increases of $3.4 million for Indian Child Welfare Act 
programs that work with social services programs and the courts to keep 
Indian children in need of foster care in Indian communities where 
possible; an additional $1.7 million to improve access to suitable 
housing for Indian families with children; and a $1.0 million increase 
for job training and placement. The budget includes an additional $2.6 
million for tribal courts to implement a comprehensive strategy to 
provide alternatives to incarceration and increase treatment 
opportunities across Indian Country.
    As a Departmental priority goal, the BIA Office of Justice Services 
(OJS) works to support rehabilitation and reduce recidivism by 
promoting alternatives to incarceration. The BIA OJS, responding to 
concerns raised by tribes, law enforcement and tribal courts about high 
rates of alcohol- and drug-related offenses, in 2014 created the 
Diversion and Re-entry Division (DRD). The DRD is transforming 
institutional practices to focus on recidivism reduction and solution-
focused sentencing initiatives. These initiatives are intended to 
create alternatives to incarceration that build onto existing treatment 
services in tribal communities.
    As part of DRD's efforts to reduce recidivism, three reservations 
were selected to implement a pilot initiative, with the goal of 
reducing recidivism in a pre-identified cohort of 150 repeat offenders 
at these sites by three percent by September 30, 2015. At the end of FY 
2015, the three tribes participating in the pilot experienced a 
combined average reduction in recidivism of 46 percent.
    The BIA OJS will continue pilot programs at five sites that seek to 
lower rates of repeat incarceration, with the goal of reducing 
recidivism by a total of three percent within these communities by 
September 30, 2017. The pilot programs will continue to implement 
comprehensive alternatives to incarceration strategies that seek to 
address the underlying causes of repeat offenses--including substance 
abuse and social service needs--through alternative courts, increased 
treatment opportunities, probation programs, and interagency and 
intergovernmental partnerships with tribal, Federal, and State 
stakeholders. These efforts will promote public safety and community 
resilience in Indian Country.
    In FY 2017, the BIA OJS will continue to provide technical 
assistance and training to tribes to amend tribal legal codes to 
reflect provisions in the Tribal Law and Order Act and reauthorization 
of the Violence Against Women Act, both of which expanded tribal court 
jurisdiction and responsibilities in all states. Updated codes will 
provide stronger protections and safety for vulnerable populations and 
will expand the jurisdiction of tribal law enforcement and justice 
systems over domestic violence altercations in Indian Country. The FY 
2017 budget proposes $1.8 million to build on the work with Indian 
tribes and tribal organizations to assess needs, consider options, and 
design, develop, and pilot tribal court systems for tribal communities 
subject to full or partial State jurisdiction of law enforcement 
activities under Public Law 83-280. The BIA is also implementing 
training for its law enforcement staff in the areas of law enforcement, 
social services, victim services, and courts. The BIA is making this 
training available to tribes operating these programs under self-
determination contracts and self-governance funding agreements.
Creating Opportunities for Native Youth
    The FY 2017 budget includes key investments to support Generation 
Indigenous, which takes an integrative, comprehensive, and culturally-
appropriate approach to help improve lives of and opportunities for 
Native American youth. The FY 2017 budget maintains President Obama's 
vision for a 21st century Indian education system, grounded in both 
high academic standards and tribal values and traditions. The proposal 
invests in improving educational opportunities and quality from the 
earliest years through college so as to afford Native American youth 
world-class opportunities in today's global economy.
    The Interior budget proposes $1.1 billion in Indian education 
programs to support the implementation of the comprehensive 
transformation of the Bureau of Indian Education (BIE). The BIE is 
focused on serving as a capacity builder and service provider to 
support tribes and schools in educating their youth and delivering a 
world-class and culturally-appropriate education across Indian Country. 
As part of the transformation, the BIE has invested in areas that 
promote educational self-determination for tribal communities. The BIE 
issued the first Tribal Education Department grants in 2015 and 
Sovereignty in Education awards in 2014 and 2015 to foster the capacity 
of tribes to determine the educational needs of their youth and improve 
the operation of tribally managed school systems. Furthermore, the 
budget proposes full funding of Tribal Grant Support Costs for tribes 
which choose to operate BIE-funded schools to serve their students. The 
FY 2017 budget request builds upon this progress with increased program 
investments totaling $49.3 million to improve opportunities and 
outcomes in the classroom; expand multi-generational programs to 
advance early childhood development; provide improved instructional 
services and teacher quality; and promote enhanced native language and 
cultural programs. The budget also proposes investments to further 
enhance broadband and digital access and support tribal control of 
student education.
    The budget provides $138.3 million for education construction 
programs to replace and repair school facilities in poor condition and 
address deferred maintenance needs at the 183 campuses in the BIE 
school system. The FY 2016 enacted appropriation funds replacement of 
the remaining two BIE school campuses on the priority list created in 
2004 and supports planning for schools on the 2016 list. Finalization 
of the 2016 replacement school construction list is expected soon, once 
the rigorous process created through negotiated rulemaking is 
completed. The FY 2017 request for BIE school construction continues 
the momentum launched with the FY 2016 appropriation and provides the 
funding stability necessary to develop an orderly construction 
pipeline.
    Post-secondary education is a priority for tribes which see 
advanced education as the path to economic development and a better 
quality of life for their communities. The FY 2017 budget continues 
recognition of the important role tribal post-secondary schools play in 
empowering Indian students and tribal communities. The budget includes 
an increase of $2.0 million for the BIE-operated Haskell Indian 
University and Southwestern Indian Polytechnic Institute. The budget 
also includes an additional $500,000 for tribal technical colleges--
United Tribes Technical College and Navajo Technical University--which 
were forward funded for the first time in FY 2016. In addition, the BIE 
budget includes $6.8 million in increases for tribally-controlled 
scholarships for post-secondary education, with a focus on recipients 
seeking degrees in the fields of science, technology, engineering, and 
mathematics.
    To foster public/private partnerships to improve student 
experiences at BIE-funded schools, the FY 2017 budget proposes 
appropriations language enabling the Secretary to reactivate the 
National Foundation for American Indian Education. The proposed bill 
language will initiate a foundation focused on fundraising to create 
opportunities for Indian students in and out of the classroom. The 
budget also includes an increase of $3.6 million for Johnson O'Malley 
grants to provide additional resources to tribes and organizations to 
meet the unique and specialized educational needs of American Indian 
and Alaska Native students.
    Further supporting Native youth, the budget reflects an additional 
$2.0 million to support youth participation in natural resources 
programs focused on the protection, enhancement, and conservation of 
natural resources through science, education, and cultural learning. 
Tribal youth will benefit from the mentoring and positive role models 
provided by tribal personnel who work to manage and protect tribal 
trust resources. Programs aimed at tribal youth help to open future job 
opportunities, instill respect for resources, and develop an 
appreciation of the importance of natural resources to tribal cultures 
and livelihoods. Funds will support approximately 60 new tribal youth 
projects and training programs throughout Indian Country and supplement 
existing training programs within the forestry, water, and agriculture 
programs.
Tribal Nation-Building
    Programs run by tribes through contracts with the Federal 
government support tribal nation-building and self-determination. The 
FY 2017 budget continues the Administration's commitment to fully fund 
contract support costs with an increase of $1.0 million above the FY 
2016 enacted level to fully fund estimated requirements for FY 2017. 
The budget also includes a legislative proposal to fully fund BIA and 
Indian Health Service (IHS) contract support costs as mandatory 
funding, beginning in FY 2018. Indian Affairs will continue to work 
with tribes and consult on policies to address long-term programmatic 
and funding goals to advance tribal self-determination.
    Tribes and tribal organizations have expressed long-standing 
concerns about the need for accurate, meaningful, and timely data 
collection in American Indian/Alaska Native communities. Tribal leaders 
and communities need access to quality data and information as they 
make decisions concerning their communities, economic development, and 
land and resource management. It is also critical that the Federal 
government collect and analyze quality data to ensure that Federal 
agencies and programs are delivering effective services to meet tribal 
needs and deliver on Federal responsibilities.
    The FY 2017 BIA budget supports this effort with an increase of 
$12.0 million to enable the Department of the Interior to work with 
tribes to improve data quality and availability for the benefit of 
tribes and programs, create a reimbursable support agreement with the 
Census Bureau to address data gaps in Indian Country, and to create an 
Office of Indian Affairs Policy, Program Evaluation, and Data to 
support effective, data-driven, tribal policy making and program 
implementation.
    To implement an all-of-government approach to delivering programs 
and funding to Indian Country, the BIA budget proposes an increase of 
$4.0 million to continue development of a Native American One-Stop 
website to make it easier for tribes to find and access the hundreds of 
services available to tribes across the Federal government. The funding 
will also support efforts at the regional and local levels to assist 
tribes to find services and receive consistent information about 
programs available to them. The website and support center will reduce 
costs by eliminating duplication of outreach efforts and services by 
Federal government agencies. The Native One-Stop website currently has 
a portal focused on programs that serve Native American youth, in 
support of the Generation Indigenous initiative.
Sustainable Stewardship of Trust Resources
    The BIA's trust programs assist tribes in the management, 
development, and protection of Indian trust land and natural resources 
on 56 million surface acres and 60 million acres of subsurface mineral 
estates. These programs assist tribal landowners to optimize 
sustainable stewardship and use of resources, providing benefits such 
as revenue, jobs, and the protection of cultural, spiritual, and 
traditional resources. To facilitate management of trust resources, the 
budget includes a total increase of $6.9 million for Trust Real Estate 
Services activities to expand capacity to address the probate backlog, 
land title and records processing, geospatial support needs, and 
database management.
    The Indian Energy Service Center received initial funding in FY 
2016. Income from energy is one of the larger sources of revenue 
generated from trust lands, with royalty income of $826 million in 
2015. The Center will expedite the leasing, permitting, and reporting 
for conventional and renewable energy on Indian lands and provide 
resources to ensure that development occurs safely, protects the 
environment, and manages risks appropriately. Technical assistance will 
be provided to support assessment of the social and environmental 
impacts of energy development. The Center includes staff from BIA, 
Office of Natural Resources Revenue (ONRR), Bureau of Land Management 
(BLM), and the Office of the Special Trustee (OST)--all of which have 
responsibilities related to tribal energy advancement. Working with the 
Department of Energy's Office of Indian Energy, the Center will provide 
a full suite of energy development-related services to tribes 
nationwide. The Center will coordinate and enhance BIA's ability to 
process leases, BLM's responsibility to approve and monitor 
Applications for Permits to Drill, and the ONRR responsibilities for 
royalty accounting; and will institute streamlined processes, 
standardized procedures, and best practices for development of 
conventional and renewable energy at various locations.
    The BIA has taken several steps to help tribes proactively steward 
Indian resources to support economic stability, promote tribal cultural 
heritage, and protect the environment in Indian country. The Department 
is requesting a $2.0 million increase to address subsistence management 
in Alaska. Alaska Native communities, among the most under-resourced in 
the country, are also at the highest risk of negative impacts to their 
basic cultural practices due to environmental changes, including 
climate change. The Department is committed to helping Alaska Native 
leaders build strong, prosperous and resilient communities. The funding 
will target areas across the state that promote tribal cooperative 
management of fish and wildlife and improve access to subsistence 
resources on Federal lands and waters. The budget also invests in 
stewardship of assets maintained by the BIA for the benefit of tribes. 
The budget proposes an additional $2.0 million for the Safety of Dams 
program. The program is currently responsible for 136 high or 
significant-hazard dams located on 42 Indian reservations in 13 States. 
The program maintains and rehabilitates dams to protect communities in 
the floodplain downstream and to maintain the functions for which the 
dam was built. The program contracts with tribes to perform many 
aspects of the program. The budget also includes $1.0 million for 
deferred maintenance needs at regional and agency facilities to address 
safety, security, and handicap accessibility issues.
Increasing Resilience of Natural Resources in Indian Country
    Tribes throughout the U.S. are already experiencing the impacts of 
a changing climate including drought, intensifying wildfires, changes 
in plants and animals important to subsistence and cultural practices, 
impacts to treaty and trust resources, and coastal erosion and sea-
level rise. Executive Order 13653, Preparing the United States for the 
Impacts of Climate Change, called on the Federal government to partner 
with tribes across the U.S. in planning, preparing for, and responding 
to the impacts of climate change.
    With input from hundreds of tribal leaders, the budget provides a 
$15.1 million increase over FY 2016 across eight BIA trust natural 
resource programs to support tribal communities in preparing for and 
responding to the impacts of climate change. Funds will provide support 
for tribes to develop and access science, tools, training, and planning 
and to build resilience into resource management, infrastructure, and 
community development activities. Funding will also be set aside to 
support Alaska Native villages in the Arctic and other critically 
vulnerable communities in improving the long-term resilience of their 
communities.
    Tribal lands, particularly in the West and Alaska, are by their 
geography and location on the frontline of climate change, yet many of 
these communities face immense challenges in planning for and 
responding to the far-reaching impacts of climate change on 
infrastructure, economic development, food security, natural and 
cultural resources, and local culture. Some communities are already 
experiencing increasingly devastating storms, droughts, floods, sea-
level rise, and threats to subsistence resources. The budget supports 
climate change adaptation and resilience by funding training, studies, 
scenario planning, natural resource and infrastructure projects, public 
awareness and outreach efforts, capacity building, and other projects.
Indian Settlements
    The FY 2017 budget request for Indian water rights settlements 
continues the Administration's strong commitment to resolve tribal 
water rights claims and ensure that tribes have access to use and 
manage water to meet domestic, economic, cultural, and ecological 
needs. Many of the projects supported in these agreements bring clean 
and potable water to tribal communities, while other projects repair 
crumbling irrigation and water delivery infrastructure on which tribal 
economies depend. These investments not only improve the health and 
well-being of tribal members and preserve existing economies but, over 
the long term, also bring the potential for jobs and economic 
development.
    The FY 2017 Departmental budget for authorized settlements and 
technical and legal support involving tribal water rights totals $215.5 
million, an increase of $4.6 million from the FY 2016 enacted level. In 
FY 2016, the Department completed funding for the Taos Pueblos water 
settlement and, in FY 2017, will complete the funding requirements for 
the BIA portion of the Aamodt water rights settlement.
    To strengthen the Department's capacity to meet its trust 
responsibilities and more effectively partner with tribes on water 
issues, the FY 2017 budget includes a $13.7 million increase across the 
operating budgets of BIA, Reclamation, BLM, the Fish and Wildlife 
Service, and the U.S. Geological Survey. This funding will support a 
robust, coordinated, Interior-wide approach to working with and 
supporting tribes in resolving water rights claims and supporting 
sustainable stewardship of tribal water resources. Funds will 
strengthen the engagement, management, and analytical capabilities of 
the Secretary's Indian Water Rights Office; increase coordination and 
expertise among bureaus and offices that work on these issues; and 
increase support to tribes.
    The FY 2017 budget request also continues the Administration's 
strong commitment to honor enacted land settlements. The budget 
includes $10.0 million to provide the Yurok Tribe in Northern 
California funds to acquire lands as authorized in the Hoopa-Yurok 
Settlement Act. The Act authorizes funding for the purpose of acquiring 
land or interests in land within, adjacent to, and contiguous with the 
Yurok Reservation from willing sellers. This one-time funding satisfies 
the Federal contribution. This funding for land acquisition supports 
efforts by the Yurok Tribe and partners in conservation to conserve 
47,097 acres of the Klamath-Siskiyou ecoregion which will be managed as 
a salmon sanctuary and sustainable community forest. The conservation 
will ensure the health of the ecoregion and assist the Yurok community 
to revitalize its cultural heritage and develop a natural resource-
based economy that supports and employs tribal members.
Summary
    This FY 2017 budget maintains strong and meaningful relationships 
with Native communities, strengthens government-to-government 
relationships with federally recognized tribes, promotes efficient and 
effective governance, and supports nation-building and self-
determination. The FY 2017 budget request delivers community services, 
restores tribal homelands, fulfills commitments related to water and 
other resource rights, executes fiduciary trust responsibilities, 
supports the stewardship of energy and other natural resources, creates 
economic opportunity, expands access to education, and assists in 
supporting community resilience in the face of a changing climate.
    Thank you for the opportunity to appear before you today. I am 
happy to answer any questions the Committee may have.

    The Chairman. Thank you very much, Mr. Roberts.
    Ms. Ramirez.

        STATEMENT OF LOURDES CASTRO RAMIREZ, PRINCIPAL 
    DEPUTY ASSISTANT SECRETARY, OFFICE OF PUBLIC AND INDIAN 
   HOUSING, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Ms. Ramirez. Chairman Barasso, Vice Chairman Tester, and 
members of the Committee, thank you very much for your 
partnership over the years and for this opportunity to discuss 
HUD's fiscal year 2017 budget request.
    Specifically, it proposes investments in Native American, 
Alaska Native and Native Hawaiian communities. As you know, 
Native American people hold a special place in our Country's 
history. They have made lasting contributions to every aspect 
of our Nation's life, our commerce, our culture, our character 
and more. However, the sad truth is that far too many members 
of this community face significant barriers to decent and 
affordable housing.
    Studies show that Native people are more than three times 
as likely to live in overcrowded conditions. I witnessed these 
challenges firsthand when I travel to the Pine Ridge 
Reservation in South Dakota. I met families who were struggling 
to get by.
    When I asked them what one thing would make their lives 
better, a young girl from the community said, a house. She 
wanted to know why her family could not find a decent place to 
rent, a place she could call home.
    She explained that she has lived her entire life with her 
extended family in a small, overcrowded house and that her 
mother has been on the housing waiting list for nearly a 
decade. In her tribal community and in many others, it is all 
too common to see three or four families living together in a 
single, overcrowded home.
    She clearly recognized what we all do, that safe, 
affordable housing provides a foundation that every American 
needs to achieve their dreams.
    We have requested $700 million for the Indian Housing Block 
Grant Program, the largest single source of funding for 
affordable housing under the Native American Housing Assistance 
and Self Determination Act. We expect this eight percent 
funding increase to support block grants to 567 tribes in 34 
States.
    HUD also requests $5.5 million for the Indian Housing Loan 
Guarantee Program to assist Native Americans across the income 
spectrum in buying a home and building wealth. We want to help 
local leaders surround this housing with the assets that every 
community needs to thrive such as jobs, roads and 
infrastructure.
    We are seeking $80 million for the Indian Community 
Development Block Grant Program, an increase of $20 million to 
spark economic development in tribal lands. I saw the impact of 
this funding during a recent visit with the Pascua Yaqui Nation 
in Arizona.
    The tribe leveraged IHBG and ICDBG funds to finance and 
build 122 new affordable housing units including elderly 
housing and a community park in the town of Guadalupe. We want 
opportunity to reach every segment of society whether they are 
young or elderly, a family or a veteran returning from service 
overseas.
    That is why I request authorization of the President's 
commitment to Native American youth by dedicating $20 million 
to further generation indigenous of government-wide initiatives 
to improve the lives and opportunities for Native youth. It is 
also why we are working to ensure that every veteran has a 
home.
    I thank members of this Committee for helping to create the 
tribal-HUD-VASH demonstration to assist brave Native Americans 
who served our Country and are now experiencing homelessness.
    HUD and the VA awarded $5.9 million in rental assistance to 
26 tribes to assist 500 veterans. HUD is working closely with 
the VA and tribal partners to ensure that this demonstration 
succeeds in Indian Country. In fiscal year 2017, HUD requests 
$7 million to renew tribal-HUD-VASH.
    We recognize the right of Indian self-determination and 
tribal self-governance. We have fostered relationships that 
provide tribes the flexibility to design and implement place-
based housing programs according to their local needs and 
customs.
    We strongly support the reauthorization of NAHASDA. The 
tribes have made great strides even in very challenging 
budgetary environments. HUD looks forward to working with this 
Committee and with Congress on this vital piece of legislation.
    Finally, HUD's fiscal year 2017 budget represents the 
Administration's strong commitment to Indian Country and 
recognizes the positive results that have been achieved through 
our Native American programs.
    We are proud of the strong and growing capacity that our 
tribal partners have demonstrated in putting their limited 
resources to work and increasing their ability leverage Federal 
dollars.
    Thank you again for the invitation to discuss our budget 
proposal. I look forward to the conversation today.
    [The prepared statement of Ms. Ramirez follows:]

    Prepared Statement of Lourdes Castro Ramirez, Principal Deputy 
    Assistant Secretary, Office of Public and Indian Housing, U.S. 
                             Department of 
                     Housing and Urban Development
    Thank you Chairman Barrasso, Vice Chairman Tester, and Members of 
the Committee, for this opportunity to discuss the Administration's 
Fiscal Year (FY) 2017 Budget Request for HUD, and how it addresses the 
housing and economic development needs in Indian Country. I also wish 
to acknowledge and thank the Committee's staff, not only for 
coordinating this hearing, but also for their ongoing engagement with 
HUD staff on the many issues that impact Native American communities 
across our nation.
    The FY 2017 budget reflects the Administration's overall commitment 
to ending homelessness, helping families and individuals secure quality 
housing, building stronger communities, and increasing economic 
mobility. This budget is built on evidence of what works and invests in 
strategies proven to pay dividends for families and communities. The 
funding requests for HUD's Native American housing programs recognize 
the substantial need for decent, affordable housing and the significant 
economic hardship that exists in many Native American communities.
    As the Principal Deputy Assistant Secretary for Public and Indian 
Housing, I have had the opportunity to visit Native communities to 
learn first-hand about the issues and challenges the tribes face, see 
how tribal communities have successfully put HUD programs and funding 
to work in addressing their needs and priorities, and to hear directly 
from tribal leaders on what we need to do to strengthen and improve 
HUD's policies and programs for Native Americans. Far too many Native 
American communities struggle with severely overcrowded housing, 
substandard living conditions, and significant barriers to economic 
opportunity.
    The FY 2017 Budget not only significantly increases funding in 
Native American housing programs, but proposes key initiatives to 
address the needs of Native youth and Veterans, expand housing and 
economic opportunity, and revitalize communities.
    HUD recognizes the right of Indian self-determination and tribal 
self-governance and has fostered relationships that provide tribes the 
flexibility to design and implement appropriate, place-based housing 
programs according to local needs and customs. HUD's budget provides a 
total of $798 million to directly support housing and economic 
development in American Indian, Alaska Native, and Native Hawaiian 
communities nationwide. This is an increase of $80 million above the FY 
2016 enacted level and is expected to support $698 million in block 
grants to 567 tribes in 34 states. For the Indian Housing Block Grant 
(IHBG) program, the requested increase of $50 million is long overdue. 
In the program's 19-year funding history, annual appropriations have 
ranged from $600 million to $700 million, but the average annual 
appropriation has only been $639 million. Flat funding of this account 
has resulted in a significant decline in the program's buying power 
over the years, due to inflation and the soaring costs of new home 
construction. The net effect has been a decline in unit production by 
program grantees, even though program expenditure rates are at 95 
percent. For example, in the last 5 years, production of new units 
steadily declined from 2,679 units produced in FY 2011, to 933 units in 
FY 2016.
    Today, the U.S. Census reports that one out of every four Native 
Americans lives in poverty--including more than one-third of all Native 
American children. Far too many families live in unacceptable 
circumstances and face a future that lacks educational and economic 
opportunity. In the last 14 years (2003-2016), the number of low-income 
families in the Indian Housing Block Grant (IHBG) formula areas grew by 
almost 44 percent, and now exceeds 322,000 families. The number of 
overcrowded households, or households without adequate kitchens or 
plumbing, grew by 23 percent, to over 111,000 families. Finally, the 
number of families with severe housing costs grew by 58 percent, to 
over 66,000 families. \1\
---------------------------------------------------------------------------
    \1\ HUD's Indian Housing Block Grant Formula, http://
portal.hud.gov/hudportal/HUD?src=/program_offices/
public_indian_housing/ih/codetalk/onap/ihbgformula
---------------------------------------------------------------------------
    To put these numbers in greater perspective, American Indian and 
Alaska Native people living in tribal areas in 2006-2010 had a poverty 
rate and an unemployment rate that were at least twice as high as those 
rates for non-Indians nationally. American Indian and Alaska Native 
people in large tribal areas were more than 3 times as likely to live 
in housing that was overcrowded, and more than 11 times as likely than 
the national average to live in housing that did not have adequate 
plumbing facilities. \2\
---------------------------------------------------------------------------
    \2\ Continuity and Change: Demographic, Socioeconomic, and Housing 
Conditions of American Indians and Alaska Natives, HUD-PD&R, January 
2014, pp. 60-61.
---------------------------------------------------------------------------
    I saw this for myself when I traveled to the Pine Ridge reservation 
in South Dakota to meet with tribal leadership, youth, housing 
officials, and senior representatives from several federal agencies. 
When asked by representatives of several federal agencies what one 
thing would make her life better, a young girl from a reservation got 
right to the point: ``a house.'' When many of us hear this, we assume 
she was echoing the American Dream of owning a home. But this young 
girl's request was even simpler: she just wanted to know why her family 
could not find a decent place to rent--a place that she could call 
home. ``My mom has been on the waiting list for nine years,'' she 
matter-of-factly informed the group. She explained that she has lived 
her entire life with extended family in a small, overcrowded house. On 
her reservation and many others like it across Native American 
communities, it is all too common to see three or four families living 
together in a two-bedroom home.
    In further support of this funding request increase, it is 
important to highlight the strong and growing capacity that our tribal 
partners have demonstrated in putting their limited federal resources 
to work. As you are aware, there is a unique relationship between the 
Federal Government and tribal governments, established by long-standing 
treaties, court decisions, statutes, Executive Orders and the United 
States Constitution. Each of the 567 federally recognized tribes has 
its own culture, traditions, and government. HUD recognizes the 
importance of tribal sovereignty and our government-to-government 
relationships with tribes in the administration of Native American 
programs, which are designed to provide flexibility to the tribes to 
allow them to decide how best to address their individual housing needs 
and economic priorities.
    Tribes have developed many innovative approaches that have improved 
the affordable housing, infrastructure, and public facilities available 
to eligible low-income families. In fact, HUD has implemented a process 
for collecting and sharing best practices by recipients of IHBG and 
Indian Community Development Block Grant (ICDBG) funds through the 
Office of Native American Program's (ONAP) website, CodeTalk 
(www.hud.gov/codetalk). For example:

  <bullet> The Cherokee Nation in Oklahoma developed an automated 
        tracking system for its housing programs, and has shared a 
        description of how its environmental office uses i-Pads and 
        wireless communications to access their system while in the 
        field.

  <bullet> The Tagiugmiullu Nunamiullu Housing Authority on the on the 
        Northern Slope of Alaska collaborated with the Cold Climate 
        Housing Research Center to design and build 24 modern, super 
        energy-efficient, affordable homes. Their ``best practices'' as 
        described on the Codetalk website, feature not only the design 
        of the new homes, but how the housing entity leveraged its 
        Indian Housing Block Grant and a Title VI loan to obtain 
        additional funds to complete the project.

  <bullet> The Sault Ste. Marie Tribe of Chippewa Indians Housing 
        Authority, in Michigan, describes its complicated, but 
        successful efforts to finance the provision of water and sewer 
        service to an existing subdivision. The tribe used some of its 
        own money, and was also awarded grants from USDA-Rural 
        Development, the Environmental Protection Agency, the Indian 
        Health Service, and funding from HUD's Indian Community 
        Development Grant and Indian Housing Block Grant.

  <bullet> The Pascua Yaqui Tribe in Arizona has successfully built 122 
        new affordable housing units including a five-plex for the 
        elderly within the Town of Guadalupe and leveraged IHBG funds 
        with ICDBG funds to finance the construction of a community 
        park to serve their affordable housing units. They have also 
        built a maintenance warehouse and expanded their administrative 
        building.

    This Administration's FY 2017 Budget recognizes the critical needs 
in Indian Country, and is committed to expanding opportunities for 
individuals, families, and communities.
Program Funding
    IHBG and Title VI Loan Guarantee Programs--For FY 2017, the 
Administration is requesting $700 million for the two programs 
authorized by the Native American Housing Assistance and Self-
Determination Act of 1996 (NAHASDA), the aforementioned IHBG program, 
and the Title VI loan guarantee program. This is an increase of $50 
million compared to the FY 2016 enacted funding. The IHBG program is 
the principal means by which HUD fulfills its trust obligations to low-
income American Indians and Alaska Natives who live on Indian 
reservations or in other traditional Indian areas. The grant recipients 
are eligible tribal government entities or their designated housing 
entities (TDHEs), which deliver housing assistance to families in need. 
The Title VI loan guarantee program provides guaranteed loans for IHBG 
recipients that are in need of additional funds to engage in eligible 
affordable housing activities. Recipients leverage private market 
financing by pledging a portion of their IHBG grants as security to HUD 
in exchange for a 95 percent guarantee of any unpaid principal and 
interest due on a lender's loan.
    With this requested $700 million in funding, HUD will distribute 
$698 million in block grant funds to approximately 369 recipients, 
representing tribes in 34 states. Combined with prior-year grant 
awards, this will allow tribal grantees to build, acquire, or 
substantially rehabilitate more than 5,000 affordable units in FY 2017. 
The funding will also allow grantees to operate and maintain 
approximately 40,000 older, affordable ``HUD units,'' which were funded 
before NAHASDA was enacted. Other eligible uses for IHBG funds include, 
but are not limited to, the provision of housing counseling, crime 
prevention and safety activities for low-income residents, down payment 
assistance, tenant-based rental assistance, management of affordable 
housing properties, utility subsidies, energy auditing, loan making and 
processing, the acquisition of land on which to develop affordable 
housing, and administrative expenses.
    The $2 million in requested credit subsidy for the Title VI loan 
guarantee program can support up to $18 million in loans. IHBG 
recipients may use this program to borrow from private lenders up to 
five times the amount of the ``need portion'' of their annual IHBG 
program to fund larger, longer term housing developments. About five 
loans each year are guaranteed, but the size of the projects and the 
loans vary widely from tribe to tribe.
    The block grant and the Title VI loan guarantee program often work 
together, allowing grantees to leverage other sources of funds to 
maximum effect. For example, the Pojoaque Housing Corporation, in New 
Mexico, constructed a 30-unit rental housing development funded with: 
its IHBG; a 20-year, Title VI guaranteed loan originated by Century 
Bank; grant funds from HUD's Rural Housing and Economic Development 
program; a Federal Home Loan Bank Affordable Housing Program Grant; and 
Low Income Housing Tax Credits. The Siletz Tribe, in Oregon, invested 
almost $70,000 of its block grant funds along with a $1.4 million Title 
VI loan to construct seven new, energy-efficient homes to be sold to 
tribal members.
    Indian Community Development Block Grant (ICDBG) Program--HUD's FY 
2017 request also includes $80 million for the ICDBG program, which is 
funded through the CDBG program and awarded competitively. This funding 
request represents an increase of $20 million in comparison to the FY 
2016 enacted level. ICDBG funding is used for many different types of 
housing and community development activities, such as economic 
development activities, addressing imminent threats to a community's 
health and safety, projects that make communities more resilient to 
weather and climate change, projects that support at-risk Native youth, 
and mold remediation and prevention. For example, the Kickapoo 
Traditional Tribe of Texas used ICDBG funds to construct a community 
wellness center for tribal members. The Wellness Center has a 
gymnasium, computer lab, physical therapy pool, a cafeteria and dining 
area, and hosts various enrichment programs for children, teens, and 
the elderly.
    Of the $80 million for ICDBG, up to $20 million will be set aside 
to assist tribes in addressing the needs of Native American youth. This 
initiative is part of President Obama's Government-wide effort, 
Generation Indigenous, to improve the lives and opportunities for 
Native American youth, who are the future of Indian Country. Under this 
proposal, tribes will be able to compete for funding for community 
projects that will help to improve outcomes for Native youth, such as 
construction or renovations of community centers, health clinics, 
transitional housing, pre-school/Head Start facilities and teacher 
housing to attract and retain high-quality teachers.
    Indian Housing Loan Guarantee Program--The Department is also 
requesting $5.5 million for the Indian Housing Loan Guarantee program 
(also known as the Section 184 program). The request will support up to 
$1.3 billion in loan guarantees. To meet anticipated program demand 
with a funding level of $5.5 million, HUD is planning to implement a 
modest 10 basis point increase in the annual fee. HUD will conduct 
outreach to tribes in advance of this fee increase.
    The program provides an incentive for private lenders to market 
loans to American Indians and Alaska Natives by guaranteeing 100 
percent repayment of the unpaid principal and interest due in the event 
of a default. HUD approved lenders receive a loan guarantee in exchange 
for making market-rate mortgage loans to American Indians and Alaska 
Native families, Indian tribes, and tribally-designated housing 
entities to purchase, construct, refinance or rehabilitate single-
family homes on trust or restricted land and in tribal areas of 
operations. The program makes homeownership a realistic option for 
tribal members across the income spectrum. Tribes can use the program 
to diversify the type of housing on native lands by developing housing 
for homeownership or as long-term rentals without affordability 
restrictions.
    Native Hawaiian Housing Block Grant (NHHBG): The Department 
requests $500,000 for FY 2017 for the NHHBG program, which was not 
funded in FY 2016 due to the existing amount of carryover funding to 
support program activities. Since its inception in FY 2002, the 
Department of Hawaiian Home Lands, which is the sole grantee, has 
built, acquired, or rehabilitated 601 affordable homes on Hawaiian home 
lands, using NHHBG funds. In addition, 325 lots had been improved with 
infrastructure development to support construction of new homeownership 
units. Three community centers have been rehabilitated, which provide 
services to affordable housing residents. And, more than 1,600 
individuals and families have received housing services, such as pre-
and post-homebuyer education, financial literacy training, and/or self-
help home repair training to sustain safe, decent homeownership 
housing. In FY 2016, the infrastructure for 278 more lots is scheduled 
to be completed, and it is expected that 30 new homes and their related 
infrastructure will be built each year in FY 2016 and FY 2017.
Key Initiatives
    In addition to the increased funding for HUD's Native American 
programs, the Budget includes several proposals that would replicate 
successful public housing and voucher initiatives in Indian Country. 
These initiatives have been modified where necessary to meet the 
specific needs and unique circumstances of Indian Country.
    Tribal HUD-VASH--HUD's FY 2017 Budget also provides funding to 
support the Tribal HUD-Veterans Affairs Supportive Housing (VASH) 
demonstration program. Since FY 2008, HUD has partnered with the 
Department of Veterans Affairs (VA) to provide rental assistance and 
supportive services to homeless veterans. This successful program has 
assisted over 151,000 homeless veterans. However, until FY 2015, this 
program was unable to reach Native American veterans in tribal 
communities because tribes or their designated housing entities were 
not eligible to manage housing choice vouchers.
    Recognizing the need to extend this successful program to the brave 
Native Americans who served our country in the Armed Forces and are now 
experiencing homelessness or are at-risk of homelessness on or near a 
reservation or other Indian areas, Congress authorized and funded the 
Tribal HUD-VASH demonstration in FY 2015. Under this demonstration, 
$5.9 million in rental assistance from HUD has been made available to 
26 tribes. Combined with case management services through the VA, this 
demonstration is expected to assist approximately 500 homeless Native 
American veterans.
    For FY 2017, HUD is requesting $7 million to renew the Tribal HUD-
VASH rental assistance. We are working closely with the VA, the United 
States Interagency Council on Homelessness, and our tribal partners to 
ensure that the Tribal HUD-VASH demonstration meets the needs of 
homeless veterans in Indian Country as effectively as it has in the 
rest of the country. HUD is further proposing that any funds that 
remain available after the renewal funds (and associated administrative 
fees) are used to provide additional rental assistance to eligible 
recipients under the Tribal HUD-VASH demonstration so that we can 
increase the number of veterans served, in addition to sustaining the 
existing program.
    Jobs-Plus Pilot for Indian Country--HUD is requesting funding in FY 
2017 to support the Jobs-Plus Initiative, an evidence-based strategy 
for increasing the employment opportunities of public housing residents 
through a three-pronged program of employment services, rent-based work 
incentives, and community support for work. Of the $35 million 
requested, HUD is proposing that up to $5 million would be made 
available for tribes and tribally designated housing entities (TDHEs). 
The program would be tailored to the specific needs of tribal 
communities; however, core components of Jobs-Plus would remain the 
same--financial incentives, job promotion and training activities for 
tribal members and clients of the TDHEs, community support for work, 
and connections to employment opportunities.
    ConnectHome--On July 15, 2015, President Obama and HUD Secretary 
Castro announced the selection of 27 cities and one tribal nation, the 
Choctaw Nation of Oklahoma, to participate in ConnectHome. Under this 
pilot, eight Internet service providers are partnering with the 
participating jurisdictions to bridge the gap in digital access by 
providing discounted broadband Internet service to families that reside 
in HUD-assisted housing. The Choctaw Nation, Cherokee Communications, 
Pine Telephone, Suddenlink Communications, and Vyve Broadband are 
working together to ensure that over 425 tribal housing residents have 
access to low-cost, high-speed Internet. Best Buy is also offering 
computer training and technical support to expand the impact of 
broadband access for the Choctaw Nation.
    HUD is requesting $5 million in 2017 to support this pilot. The 
requested funding will be used to award competitive grants that 
increase broadband access and adoption, such as grants to hire and 
train program coordinators. The coordinator would serve as the primary 
link between the public housing authority or the tribally-designated 
housing entity, the Internet Service Provider, and federal, State, and 
local partners. On February 24th, 2016, HUD provided guidance to all 
tribal government and tribal housing leaders on using IHBG, Title VI, 
and ICDBG funds to expand broadband connectivity in their low-income 
communities.
    Choice Neighborhoods--HUD is requesting $200 million for Choice 
Neighborhoods for FY 2017. Tribes and tribally-designated housing 
entities are eligible to apply for Choice Neighborhoods funding. The 
Choice Neighborhoods program provides competitive grants to transform 
neighborhoods of concentrated poverty into sustainable, mixed-income 
communities, with a focus on improved housing, successful residents, 
and vibrant neighborhoods. Building on the success of the HOPE VI 
program, Choice Neighborhoods leverages significant funds and fosters 
partnerships, giving communities the ability to address persistent 
violent crime, create connections to job opportunities, and improve 
schools in order to change the trajectories of families living in those 
neighborhoods. Choice Neighborhoods provides two kind of grants: (1) 
Implementation Grants, which allow communities to put their plans for 
neighborhood revitalization into effect; and (2) Planning and Action 
Grants that support the development of comprehensive strategies along 
with critical community improvement projects.
Collaborative Initiatives
    Tribal Consultation Policy--While cross-agency collaboration and 
coordination between Federal agencies and local stakeholders is 
essential to effectively address the needs of Indian Country, at its 
core, HUD's most important partner in this endeavor remains the tribes 
and their housing entities. Tribal leaders must be empowered to develop 
their own solutions to the challenges that may face their communities. 
HUD is finalizing a Tribal Consultation Policy that will give tribes a 
stronger voice in shaping HUD's work in Native communities.
    Negotiated Rulemaking--HUD participated in a negotiated rulemaking 
committee with 24 tribal representatives concerning the Indian Housing 
Block Grant (IHBG) funding formula. This committee last met in January 
2016 to finalize the last set of proposed changes to the regulations 
governing the IHBG formula. The Department is currently finalizing a 
draft of the proposed rule for review by the Office of Management and 
Budget as a precursor to a Federal Register publication of the proposed 
rule for general public comment.
    HUD also strongly supports the reauthorization of NAHASDA, which 
authorizes the single largest source of Federal funding for housing in 
Indian Country. The tribes have made great strides under this seminal 
piece of legislation, even in very challenging budgetary environments.
    Place-Based Initiatives--HUD has also been an active participant in 
the ongoing interagency efforts to address the significant housing, 
capacity, and infrastructure needs on the Pine Ridge reservation, which 
has been designated as one of the Administration's Promise Zones. The 
Promise Zone is a 10-year designation, and HUD is partnering with over 
a dozen Federal agencies to help on-going efforts to spark growth and 
increase opportunities for the residents of Pine Ridge.
    Environmental Reviews--HUD is teaming up with other federal 
partners to bring the benefits of interagency collaborative initiatives 
to our Native American stakeholders. A GAO report in March 2014 
identified differing environmental review requirements among agencies 
as a challenge that delays projects and increases costs when tribes 
combine funding sources. Subsequently, HUD was directed by the Senate 
Report accompanying the FY 2015 Transportation and Housing and Urban 
Development and Related Agencies Appropriations Bill to lead a working 
group of Federal agencies to develop a coordinated environmental review 
process for housing and housing-related infrastructure in Indian 
Country. HUD worked with the Council on Environmental Quality, the 
Environmental Protection Agency, the Department of Agriculture, the 
Department of the Interior's Bureau of Indian Affairs, and other 
Federal agencies to complete a report to Congress with findings and 
recommendations on streamlining the Federal environmental review 
process, entitled ``Coordinated Environmental Review Process Final 
Report.'' HUD wishes to recognize and thank all the tribal leaders who 
helped with this process--their insights and participation throughout 
the process have been invaluable, and almost all of the report 
recommendations stem directly from their feedback. HUD continues to 
lead the group as it works to implement the report's recommendations.
    Technical Assistance--HUD recognizes the importance of assisting 
tribes and their housing entities to increase their capacity and 
technical expertise. The FY 2017 budget proposes that Native American 
technical assistance be funded through transfers into the Department-
wide Research and Technical Account managed by HUD's Office of Policy, 
Development and Research (PD&R). Program transfers for these purposes 
reflect the Department's commitment to the progress made toward cross-
programmatic, better-targeted technical assistance and capacity 
building. HUD intends to allocate $5 million in program transfers to 
Native American technical assistance activities. While PD&R will manage 
the funding award process, ONAP will continue to seek input from tribes 
on the needs and will retain decisionmaking authority on the awards.
    Comprehensive Housing Needs Study--Finally, HUD's Office of Policy 
Development and Research is close to completing the most comprehensive 
national housing survey of American Indians and Alaska Natives on 
tribal lands. The study's objective is to provide clear, credible, and 
consistent information to assess the housing needs and conditions in 
Native American communities. The study will also present information on 
how tribes are using NAHASDA funds and will analyze the successes and 
barriers to Section 184 mortgage lending in Indian Country. The study 
will inform policy, allow HUD to serve tribes more effectively, and 
provide comprehensive data that the tribes can use in assessing the 
needs of their communities and formulating the strategies they will 
employ to best address those needs.
    In closing, this Budget represents the Administration's strong 
commitment to Indian Country, and recognizes not only the immense 
challenges facing tribes, but also positive results that have been 
achieved to-date through HUD's Native American programs. Since 1998, 
IHBG recipients have built or acquired more than 38,000 affordable 
homes and supported more than 78,000 rehabilitation projects in Indian 
Country. The Section 184 program has guaranteed more than 31,000 loans 
for more than $5.2 billion. American Indian and Alaska Native 
communities have increased their capacity to responsibly administer 
housing programs that are a good fit for their respective populations, 
geographies, and circumstances, investing more than $13 billion in HUD 
funds since 1998 to build their communities. Through a combination of 
increased funding for Native American programs and new initiatives for 
Indian Country, this Budget request builds toward a future where all 
Americans, including the First Americans, have the opportunity to 
achieve and sustain economic mobility.

    The Chairman. Thank you, Ms. Ramirez.
    Ms. Smith.

  STATEMENT OF MARY SMITH, PRINCIPAL DEPUTY DIRECTOR, INDIAN 
  HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Smith. Good afternoon, Chairman Barrasso. Thanks so 
much for this opportunity today.
    I am Mary Smith, Principal Deputy Director of the Indian 
Health Service. I have only been in my job as Principal Deputy 
Director for a little over a week, although I have been at the 
agency for slightly longer. I served approximately five months 
in the role of Deputy Director.
    It has become quite clear to me that while the IHS is 
firmly committed to the mission of providing quality health 
care for American Indians and Alaska Natives, we face steep 
operational and quality of care challenges. This situation is 
unacceptable.
    I do want to thank this Committee. I know it was little 
over a month ago that this Committee held an oversight hearing 
on the Indian Health Service. We appreciate the opportunity and 
the leadership that you have shown to shine a light on these 
issues. I firmly believe that if we are not talking about them, 
then we are not addressing them.
    I appear before you today to underscore my commitment to 
fixing these challenges including the Great Plains and the more 
systemic issues we face as an agency such as staffing and 
housing.
    We are committed to fixing these issues not simply in the 
short term but so that the changes are sustainable over time. I 
and the rest of the team at IHS are committed to creating a 
culture of quality, leadership and accountability. It is far 
from business as usual at the Indian Health Service.
    With that preamble, I am pleased to provide testimony on 
the President's proposed fiscal year 2017 budget for IHS, which 
will allow us to continue to make a difference in addressing 
our agency mission to raise the physical, mental, social and 
spiritual health of American Indians and Alaska Natives. I am 
committed to working with our partners, including this 
Committee, to provide access to quality health care to Native 
Americans.
    The President's fiscal year 2017 budget proposes to 
increase the total IHS program budget to $6.6 billion, which 
will add $402 million to the fiscal year 2016 enacted level and 
if appropriated, this funding level would represent a 53 
percent increase in funding for the Indian Health Service since 
fiscal year 2008.
    The overall funding increases proposed in the President's 
budget are consistent with tribal priorities and will continue 
to address longstanding health disparities among Alaska Natives 
and American Indians.
    Specific investments include expanding behavioral and 
mental health services; improving health care quality, capacity 
and work force; supporting self-determination by fully funding 
contract support costs; and ensuring health care access through 
addressing critical health care facility infrastructure needs.
    The President's budget proposal includes for pay costs, 
inflation and population growth increases that are critical to 
maintaining the budgets of IHS and tribal hospitals.
    The budget includes program increases of $49 million of 
which $46 million will be focused on critical behavioral health 
services, including generation indigenous substance abuse and 
suicide prevention projects, increasing the number of child and 
adolescent behavioral professionals, continued integration 
between medical, behavioral health and tribal community 
organizations and domestic violence prevention programming.
    I am pleased to report that the budget includes a new 
proposal, a two-year, mandatory proposal to address mental and 
behavioral health. This proposal includes a new $15 million 
tribal crisis response fund which would allow IHS to 
expeditiously assist tribes experiencing behavioral health 
crises and an additional $10 million to increase the number of 
behavioral health professionals through the American Indians 
into Psychology programs, IHS scholarships and loan repayment 
programs.
    The budget also includes funds for infrastructure that are 
critical to health care delivery and to fund newly constructed 
facilities. I do want to acknowledge that we are aggressively 
working to address quality of care issues at all three of our 
facilities in the Great Plains area, Omaha-Winnebago, Rosebud 
and Pine Ridge.
    The challenges there are longstanding, especially around 
recruitment and retention of providers but the deficiencies 
cited by CMS are unacceptable. We have an intense effort 
underway right now and have deployed Commissioned Corps 
Officers from throughout HHS.
    The Acting Deputy Secretary is convening an Executive 
Council on Quality that will bring to bear all the resources of 
the department to assist IHS. We have also established a new 
deputy position to focus on quality of care.
    We look forward to working in partnership with you to enact 
the President's budget. I want to emphasize we take these 
challenges to delivering high quality care very seriously. You 
have my commitment that we will work tirelessly to make 
meaningful, measurable progress.
    [The prepared statement of Ms. Smith follows:]

  Prepared Statement of Mary Smith, Principal Deputy Director, Indian 
      Health Service, U.S. Department of Health and Human Services
    Chairman and Members of the Committee:
    Good morning. I am Mary Smith, Principal Deputy Director of the 
Indian Health Service (IHS). Accompanying me today are Elizabeth 
Fowler, Deputy Director for Management Operations, and Gary Hartz, 
Director of the Office of Environmental Health and Engineering. I am 
pleased to provide testimony on the proposed FY 2017 President's Budget 
for the IHS, which will allow us to continue to make a difference in 
addressing our agency mission to raise the physical, mental, social, 
and spiritual health of American Indians and Alaska Natives (AI/ANs) to 
the highest level.
    The IHS is an agency within the Department of Health and Human 
Services (HHS) that provides a comprehensive health service delivery 
system for approximately 2.2 million AI/ANs from 567 federally 
recognized Tribes in 36 states. The IHS system consists of 12 Area 
offices, which are further divided into 170 Service Units that provide 
care at the local level. Health services are provided through 
facilities managed directly by the IHS, by Tribes under authorities of 
the Indian Self-Determination and Education Assistance Act, through 
services purchased from private providers, and through Urban Indian 
health programs.
    As an agency we are committed to ensuring a healthier future for 
all AI/AN people, and the IHS budget is critical to our progress in 
accomplishing this. From FY 2008 through FY 2016, IHS appropriations 
have increased by 43 percent thanks in part to your committee, and 
these investments are making a substantial impact in the quantity and 
quality of health care we are able to provide to AI/ANs. The FY 2017 
President's Budget proposes to increase the total IHS program level to 
$6.6 billion, which will add $402 million to the FY 2016 enacted 
funding level, and if appropriated, this funding level would represent 
a 53 percent increase in funding for the IHS since FY 2008.
    The overall funding increases proposed in the President's Budget 
are consistent with tribal priorities and would continue to address 
long-standing health disparities among AI/AN, compared to other 
Americans. Specific investments include expanding behavioral and mental 
health services, improving health care quality, capacity, and 
workforce, supporting self-determination by fully funding Contract 
Support Costs (CSC) of Tribes who manage their own programs, and 
ensuring increased health care access through addressing critical 
health care facilities infrastructure needs.
Prioritizing Health Care Services
    More specifically, the President's Budget proposal includes funding 
for pay costs, inflation and population growth increases totaling $159 
million, which are critical to maintaining the budgets of our IHS and 
Tribal hospitals, clinics and other programs at current year levels, 
and ensure continued support of services that are vital to improving 
health outcomes.
    The Budget also includes program increases of $49 million to grow 
health care services by targeting funding increases to help close the 
gap in health disparities experienced by AI/AN and improve their 
overall health and well-being. Of the $49 million, $46 million will be 
focused on critical behavioral health services, including $15 million 
for Generation Indigenous substance abuse and suicide prevention 
projects to increase the number of child and adolescent behavioral 
professionals; $21 million to fund continued integration between 
medical care, behavioral health, and Tribal community organizations to 
provide the entire spectrum of prevention to impact health outcomes; $4 
million to fund implementation of pilot projects for the Zero Suicide 
Initiative in IHS, Tribal, Urban (I/T/U) organizations; $2 million to 
fund a youth pilot project to provide a continuum of care for AI/AN 
youth after they are discharged and return home from Youth Regional 
Treatment Centers; and $4 million for domestic violence prevention to 
fund approximately 30 additional I/T/U organizations. And $3 million to 
expand services provided through the Catastrophic Health Emergency Fund 
and Urban Indian Health Programs.
Improving the Quality of Health Care Delivery
    The Budget includes funding increases intended to strengthen the 
provision of high-quality care. The Budget proposes an additional $20 
million for health information technology (IT) to fund improvement, 
enhancement, modernization, and security of health IT systems used for 
patient care data. And an additional $2 million for the IHS Quality 
Consortium, which will coordinate quality improvement activities among 
the 27 IHS Hospitals, Critical Access Hospitals and over 200 Outpatient 
Ambulatory Clinics to reduce hospital acquired conditions, avoidable 
readmissions, support the IHS Quality Consortium Work Plan with 
associated buildup of professional Quality staff and development of a 
National QualityManager Council. Additionally, this funding would help 
to address recent standard of care issues at three of our Great Plains 
Area hospitals.
Increasing Access to Quality Health Care Services through Improved 
        Infrastructure
    The Budget includes funds for infrastructure that is critical to 
health care delivery. Funding increases totaling $43 million are 
proposed as follows: $33 million to fund additional staff for five 
newly-constructed facilities opening between 2016 and 2017, including 
three Joint Venture facilities where Tribes funded the construction and 
equipment costs; $9 million for Tribal clinic leases and maintenance 
costs, specifically where Tribal space is ineligible for IHS 
Maintenance and Improvement funds, such as Village Built Clinics in 
Alaska; $.5 million to provide additional funds in reducing the 
maintenance backlog of $473 million at Federal and Tribal facilities.
    In addition, a total budget of $133 million is proposed, (1) to 
complete construction of the Phoenix Indian Medical Center Northeast 
Ambulatory Care Center ($53 million), (2) to begin design of the White 
River Hospital ($15 million), (3) to continue construction of the Rapid 
City Health Center ($28 million), (4) to continue construction of the 
Dilkon Alternative Rural Health Center ($15 million), (5) to fund the 
Small Ambulatory Grants Program ($10 million), and (6) to fund the 
replacement and addition of new staffing quarters in isolated and 
remote locations to enhance IHS recruitment and retention of health 
care professionals ($12 million).
    Public and private collections represent a significant portion of 
IHS and Tribal health care delivery budgets and are critical to support 
the IHS priority to improve the quality of and access to care. Third 
party collections from Medicare, Medicaid, the Veterans Health 
Administration, and private insurance allows IHS and contracting tribes 
to provide additional health care services, purchase new equipment, 
hire necessary medical staff, and make essential building improvements. 
IHS estimates that in FY 2017 it will collect approximately $1.2 
billion in funds from Medicare, Medicaid, private insurance companies, 
and the Department of Veterans Affairs.
Supporting Indian Self-Determination
    The Budget supports self-determination by continuing the separate 
indefinite appropriation account for CSC through FY 2017. Additionally, 
the Budget proposes to reclassify CSC as a mandatory, 3-year 
appropriation in FY 2018, with sufficient increases year over year to 
fully fund the estimated need for both the IHS and the Bureau of Indian 
Affairs. This funding approach continues the policy to fully fund CSC 
and helps to support self-determination.
Mandatory Funding Proposal for Mental Health Initiatives
    The Budget includes a HHS-wide 2-year mandatory proposal to address 
mental and behavioral health. For the IHS, the proposal includes a new 
$15 million Tribal Crisis Response Fund, which would allow the IHS to 
expeditiously assist Tribes experiencing behavioral health crises, and 
an additional $10 million to increase the number of AI/AN behavioral 
health professionals through the American Indians into Psychology 
program and IHS scholarships and loan repayment programs.
Legislative Proposals
    I would also like to highlight two of our legislative proposals. 
First, IHS is seeking a consistent definition of ``Indian'' in the 
Affordable Care Act (ACA). Currently, the ACA includes different 
definitions of ``Indian'' when outlining eligibility requirements for 
certain coverage provisions. These definitions are not consistent with 
eligibility requirements used for delivery of other federally supported 
health services to AI/AN under Medicaid, the Children's Health 
Insurance Program, and the IHS. The Budget proposes to standardize ACA 
definitions to ensure all AI/ANs will be treated equally with respect 
to the Act's coverage provisions, including access to qualified health 
plans with no cost sharing.
    IHS is also seeking permanent reauthorization of the Special 
Diabetes Program for Indians (SDPI). The SDPI grant program provides 
funding for diabetes treatment and prevention to approximately 301 I/T/
U health programs. Most recently, the SDPI has been reauthorized 
through September 2017. Reauthorization of the SDPI beyond FY 2017 will 
be required to continue progress in the prevention and treatment of 
diabetes in AI/AN communities. Permanent reauthorization allows the 
programs more continuity and the ability to plan more long term 
interventions and activities.
Great Plains Hospitals
    Finally, I want to acknowledge that we are working aggressively 
with the full support of the HHS to address quality of care issues at 
three of our facilities in the Great Plains Area--Winnebago, Rosebud, 
and Pine Ridge. The challenges there are long-standing, especially 
around recruitment and retention of providers, but the deficiencies 
cited in the reports by the Centers for Medicare and Medicaid Services 
(CMS) are unacceptable. We have an intense effort underway right now 
through our corrective action plans to address the problems cited by 
CMS at these three hospitals. We brought in independent third-party 
reviewers to advise us on addressing the specific deficiencies found by 
CMS. The equipment identified in the CMS findings has already been 
replaced or procurement actions are underway. To further assist with 
addressing and implementing corrective actions, additional U.S. Public 
Health Service officers are supplementing IHS personnel in the Great 
Plains Area. I am also pleased to report that as part of our continuing 
workforce improvement efforts we recently received approval for an 
emergency department physicians' pay package. At the same time, we are 
working to improve communications with the Tribes impacted. More 
broadly, we are redoubling their efforts to ensure that sustained, 
quality care is delivered consistently across IHS facilities. The HHS 
Secretary established the Executive Council on Quality Care, in which 
IHS is an active participant, and we are partnering with CMS to 
establish an agreement that will address systemic issues. As part of 
these longer-term efforts to make sustained change, we transformed our 
Hospital Consortium into a Quality Consortium and I have a new Deputy 
Director, Dorothy Dupree, who will work across the IHS to solely focus 
on quality improvement. We are also developing a strategic framework 
and sustainability plan for the Great Plains Area, in consultation with 
the Tribes, that is agile and will be used to evaluate and ensure 
quality across the entire system.
    I close by emphasizing that even with all the challenges we face, I 
know that, working together throughout HHS, with our partners across 
Indian Country and in Congress, we can improve our Agency to better 
serve Tribal communities. I appreciate all your efforts in helping us 
provide the best possible health care services to the people we serve, 
and in helping to ensure a healthier future for American Indians and 
Alaska Natives.
    Thank you and I am happy to answer any questions you may have.

    The Chairman. Thank you, Ms. Smith.
    Mr. Payment.

   STATEMENT OF AARON PAYMENT, RECORDING SECRETARY, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Mr. Payment. Chairman Barrasso and members of the 
Committee, on behalf of the National Congress of American 
Indians, I would like to thank you for holding this important 
hearing.
    The Federal budget for Indian programs is one of the key 
measures of how and whether the Federal Government is 
fulfilling its trust responsibility toward tribal governments. 
Respect for tribal self-determination is essential for the 
ability of tribal governments to meet the basic public needs of 
our citizens.
    Due to historical underfunding, inconsistent Federal 
budgets and recent fluctuations in Federal funding, tribes have 
faced continued emergencies in meeting the health, education 
and public safety needs of our citizens.
    NCAI's written testimony calls for equitable funding for 
tribal governments across the board and then addresses specific 
proposals in the Administration's budget. NCAI, in 
collaboration with tribal partners, has developed many more 
recommendations in the fiscal year 2017 Indian Country budget 
request. We ask that the document be entered into the record.
    Overall, we appreciate the cross-agency coordination in 
this budget request and encourage Congress to recognize that 
the budgetary needs of Indian Country must be addressed across 
Federal agencies to be successful. It is not enough to boost 
funding for education and public safety without also addressing 
the need for housing for teachers and law enforcement 
personnel. A great example of collaboration is the TIWAHE 
initiative which is a pilot program that addresses family and 
community well being.
    We have to tackle the interrelated problems of poverty, 
violence, substance abuse and unemployment in Indian Country in 
a holistic manner. In the last few years, we have seen 
tremendous progress in the Federal budget in the Congress' 
support for Indian Country and self-determination.
    The fiscal year 2016 Omnibus included substantial increases 
for the BIA, BIE, IHS, and other core tribal government 
programs that we are hopeful the fiscal year 2017 budget will 
build upon and those investments made in Indian Country.
    Although tribes have made some progress, there are key 
examples of egregiously underfunded services. I am appalled by 
what happened in Flint. Over 200 of members of my tribe were 
affected by this.
    I am glad that Congress and the rest of the Nation are 
paying closer attention to what can happen when community 
infrastructure breaks down. I am equally appalled that no one 
is paying enough attention to the infrastructural needs in 
Indian Country which lag far behind the rest of the Country.
    Our citizens have been living under comparable conditions 
for decades with no plan for addressing the infrastructure 
problems in Indian Country. I ask you to consider this when the 
U.S. Commission on Civil Rights issues its updated report on 
the ``Quiet Crisis'' later this year.
    This independent, bipartisan commission is undertaking a 
congressionally requested review of the Federal funding of 
unmet needs and obligations in Indian Country. We call on 
Congress to consider that long term prioritization of core 
tribal programs is necessary to reverse the trends and 
historical underfunding that have had longstanding, detrimental 
impacts on the Nation's first people.
    BIA provides the funding for core tribal governmental 
services such as law enforcement and tribal courts, Indian 
child welfare, social services, education, roads and energy 
development. NCAI urges Congress to adopt at least a five 
percent increase for the BIA's budget to counteract the 
historical underfunding of this agency.
    Fiscal year 2013 BIA funding has increased by about 24 
percent. We are grateful for that but when adjusted for 
inflation, the fiscal year 2016 enacted level is below the 
fiscal year 2013 level by about 5 percent.
    IHS faces major funding disparities as well compared to 
other Federal health care programs. The Administration's budget 
proposes an eight percent increase for IHS overall for a total 
of $5.2 billion. We are grateful for that, yet the IHS Tribal 
Budget Formulation Work Group requested $6.2 billion to 
maintain current services and provide for program expansions in 
the areas of preventative and behavioral medicine. This would 
be a great step toward meeting the $30 billion overall need in 
IHS.
    Lastly, I want to address a few of the legislative 
proposals in the fiscal year 2017 budget request that we urge 
this Committee to support.
    Those items are reclassification of contract support costs 
as mandatory which we have been working on, and I am grateful, 
permanently authorizing the special diabetes program for 
Indians and a Carcieri fix, including language and 
appropriations bills or passing legislation in these areas 
would provide great benefits to Indian Country.
    Congress must answer the moral and legal call to action so 
that Native people can look forward to improved prosperity and 
progress for future generations. Where tribes exercise self-
determination, success stories abound but we need you in 
partnership with tribal governments to pass a Federal budget in 
Indian Country that reflects and honors the trust 
responsibility of the United States.
    I want to thank you and I am happy to answer any questions 
that you may have.
    [The prepared statement of Mr. Payment follows:]

  Prepared Statement of Aaron Payment, Recording Secretary, National 
                      Congress of American Indians
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you very much, Mr. Payment. We 
appreciate your comments.
    Ms. Smith, I would like to start with you because I agree 
with your comments about the challenges, the situation being 
unacceptable and that if we are not talking about the problems 
we are not addressing them and focusing on quality, leadership, 
accountability, and aggressively working, specifically in the 
Great Plains area.
    As you know, members of this Committee had the hearing a 
couple of weeks ago where even members in the Senate who were 
not members of the Committee, such as Senator Thune, were here 
because of the concern we have regarding the conditions of the 
Indian Health Service and the Great Plains area specifically.
    In fiscal year 2016 and I know you have only been on the 
job a short period of time, Congress appropriated $2 million 
specifically to help address some of these emerging issues. 
Despite how dire the conditions are in the Great Plains area, 
it took the Administration several months to even figure out 
what to do with the $2 million in appropriated funds. I know 
you were not there at the time.
    Meanwhile, the facilities in the area have lost their 
Medicare provider status or are on the verge of losing it and 
patients and facilities ultimately pay the price. I know the 
funds would not have solved all of the problems in the area, 
but they were appropriated for the specific purpose and I think 
they could have made a difference.
    Do you know why it takes the Administration so long to 
figure out what to do with the funds?
    Ms. Smith. First of all, I do want to thank the Senators 
for this funding. I think the funding you are referring to was 
allocated to any facility that had received a notice of 
deficiency from the Centers for Medicare and Medicaid. That was 
$2 million and we are greatly appreciative.
    I will let you know that we have decided to use that 
funding to replace equipment, some of the needs cited by CMS. 
We started replacing that equipment and getting the 
procurements in process before we were able to apportion the 
money.
    I will tell you it was a process and it was a thoughtful 
process because we wanted to make sure the funds were 
distributed equitably. We had three facilities that were 
eligible for the funding.
    We agreed for the first million, we would divide them 
equally. We wanted to make sure all the tribal communities had 
access to the funds.
    The second million, we wanted to make sure we went with the 
Senate's intent for that money to replace possible lost 
billings. The second million would be allocated according to 
past collections.
    Then we went through what equipment was needed. However, I 
would make it clear that the equipment at Rosebud cited by CMS, 
we had already either replaced that equipment or put it in 
procurement. That is money on top of the $2 million.
    We have decided with the $2 million we will replace at each 
facility the central monitoring unit which is a unit that 
pretty much holds the entire hospital together. I understand 
those funds will be available to the area this week.
    Thank you again.
    The Chairman. Looking at the entire funding issue, the 
Health and Human Services Acting Deputy Secretary, Mary 
Wakefield, testified in this Committee in February that under 
the Administration, funding for the Indian Health Service 
actually increased by 43 percent over the past number of years. 
We continue to hear that the Service is underfunded.
    To me, a big problem seems to be issues related to 
transparency and accountability. You used some of those words 
in your testimony. People do not always seem to know exactly 
where the money is going. I am hoping you can help us get a 
better understanding. You may have to get back to us with this.
    For the last fiscal year and prior years under this 
Administration, what percentage of the appropriated funds was 
used for patient care? That is what we heard about a lot in the 
discussion, that less is being used for patient care whereas a 
larger percentage is used for administrative and other 
purposes.
    If you could get that to us in terms of the percentages and 
actual dollar figures, we are all looking for this 
accountability and getting an understanding. May I have your 
agreement?
    Ms. Smith. Certainly, Senator. We will get that to you.
    The Chairman. You raised the issue of the Great Plains. The 
Committee received a letter this past week from the Great 
Plains Tribal Chairmen's Association about the situation in the 
Great Plains. You are familiar with the situation, obviously. 
It asks that we take swift action to ensure that the Indian 
Health Service and the Department of Health and Human Services 
is working to address the immediate needs of Indian people in 
the Great Plains.
    It goes on to say that the crisis in the Great Plains 
continues to escalate even after the hearing last month. An 
example is the impact of diverting patients from the Rosebud 
Indian Health Service emergency room. People are dying in 
transit to non-Indian hospitals in surrounding communities. The 
other hospitals are becoming overwhelmed with about a 67 
percent spike in patients.
    They report to us that the Indian Health Service is not 
even communicating with the hospitals where the patients are 
going to in order to ensure patient safety.
    The tribes continue to be outraged. I think they have a 
right to be. This is a bipartisan issue of trying to help. We 
need real swift action, no bad dates and no more recycled plans 
to make plans.
    Could you help us talk specifically about what exactly the 
Indian Health Service is going to do to make these things right 
in the Great Plains area?
    Ms. Smith. We have seen the letter as well and I agree with 
you. I perfectly understand the frustration of the tribe and 
the situation is unacceptable.
    There is an urgency at the Indian Health Service and we are 
working urgently. As I said, I have only been in this position 
for a week but there is no more important thing that we need to 
work on than getting those three hospitals on track.
    One of the major challenges with those hospitals is the 
staffing levels. We have a three pronged approach we are 
working on to address those staffing issues. In the short term, 
we are doing deployments of Commissioned Corps Officers to try 
to get the emergency department specifically at Rosebud back in 
operation and running.
    We are also working on a contract for providers and to 
manage the emergency departments at the hospitals. We are also 
working on long term strategies for permanent hires. In fact, I 
have one bit of good news. One of the challenges we face is the 
salary we are able to pay versus the private sector and other 
government agencies, even the VA.
    Just this week, we got approval for a pay package so that 
we are now able to provide line doctors and emergency room 
doctors $300,000 and we are able to pay supervisors $325,000, 
so that will help in our permanent hires. We are attacking it 
on many levels.
    The Chairman. Thank you, Ms. Smith.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    I want to thank the Vice Chairman for allowing me to 
proceed.
    I wanted to ask you, Ms. Ramirez, about the low income 
housing tax credit as it is used in Indian Country. I know you 
described the President's budget and the $50 million increase 
for Indian housing after years of stagnant funding.
    As a member of the Finance Committee, I have actually been 
to Montana with my colleagues where we saw low income housing 
projects being used. I am wondering how you think that tax 
credit could be better used to leverage housing development in 
Indian Country?
    Ms. Ramirez. You are absolutely correct. Tribes are 
leveraging the low income housing tax credit program. As we all 
know, it is a financing resource that enables tribes to be able 
to building affordable housing or mixed income housing.
    During my testimony, I referenced that I had an opportunity 
to visit the Yaqui Nation. They have been successful with 
securing five low income housing tax credit designations. We 
are very focused on increasing the public and private 
partnerships.
    To that point, we are working closely with tribal leaders 
and Senator Heitkamp on pulling together a housing forum that 
will enable tribes to understand other private sector funding 
resources that are available to be able to continue to address 
the growing need of affordable housing.
    Senator Cantwell. So you would say it is a valued tool?
    Ms. Ramirez. It is a very valuable tool, yes.
    Senator Cantwell. Thank you.
    Mr. Roberts, Senator Tester and I have also introduced the 
Safety Act which is about facilitating tribal school 
construction improvements. I am pleased to see that the $138 
million that was in the 2016 levels were maintained but it is 
clearly not enough to deal with the shortfall.
    One of the issues seems to be the Facility Condition Index. 
For example, the Yakama Nation operates a tribal school that is 
at capacity and has two modular units and yet when you apply 
for the construction, they did not think they actually 
qualified because they had only operated it for 37 years but 
the building was over 50 years old.
    I feel as though there is always a lot of mystery here in 
what gets funded. I am seeing nods. It should not be a mystery. 
How is BIA fixing the Facility Condition Index?
    Mr. Roberts. I will say that in terms of the process, we 
are going to address new school construction for campus-wide 
facilities. The rules are clearly laid out through the 
negotiated rulemaking that tribes were a part of in that 
process.
    I will say that having observed that process, come into 
that process a little late in the game, I think there are ways 
we can work with tribes for future funding in terms of better 
addressing and making comments and choices for construction.
    Let me give you an example. The Facility Condition Index is 
key. As part of this process for those ten schools that were 
invited by the Committee to present, we reached out to all the 
tribes to say we need to make sure that all the tribal schools 
make sure that the Facility Condition Indexes were up to date.
    We did a lot of outreach over the course of the last year 
to reach each of those schools to offer technical assistance. 
Also, we have contractors visit each of those schools every 
three years to do a Facility Condition Index.
    Having said all of that, moving forward, for schools quite 
frankly I think we need to take a look at how many students are 
the schools serving. I do not think that was a metric within 
the proposed rulemaking or the negotiated rulemaking that 
resolved. I do know that the Facility Condition Index was 85 
percent of the total scoring, so there was a 15 percent scoring 
for those top ten schools to decide where construction would 
move forward.
    I hope that answers your question. I think the Facility 
Condition Index is vitally important.
    Senator Cantwell. I am not sure it does. Here would be my 
goal. It reminds me of transportation funding, at least in our 
State. You have projects and you have a certain degree where 
you are on the list and when funding meets a certain level, you 
might actually get funded.
    Here, I think there are people who feel they have been on 
the list for decades and never know when they are going to get 
funding. It just seems to be a mystery. I get you want to have 
an index. I think the index is great, but I think we need to 
have predictability for Indian Country and when their project 
is likely to be funded or if ever, or if it is going to be a 
constant thing because of project populations.
    That gives us policymakers the ability to look at these 
policies as well and maybe make some suggestions or changes if 
in fact people are falling through the cracks.
    Mr. Roberts. Thank you, Senator. That gets to one of the 
statements that Senator Tester made in his opening statement. 
That is that while we are completing the school construction 
for the schools on the 2004 list, we are now selecting the five 
schools for the 2016 list, the department is going to be 
internally working at a long term program to lay out for this 
Committee and for tribes generally.
    This will be sort of here is where we are, here is the 
funding that is needed and here is how we propose to move 
forward.
    Senator Cantwell. My time has expired. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    In Montana, tribes are getting hit with massive fines 
because of the Obamacare employer mandate. For example, the 
Blackfeet Tribe is going to face $1.1 million in penalties. The 
Crow Tribe will be hit with a $1.6 million penalty unless 
something changes.
    I have introduced the Tribal Employment and Jobs Protection 
Act which will exempt tribes and tribal employers from the 
Obamacare employer mandate and prevent these unreasonable, I 
would argue, outrageous fines.
    The National Congress of American Indians and the National 
Indian Health Board have endorsed this bill. While the 
President recognizes the impact of Obamacare on many and has 
requested changes to other related provisions like the Cadillac 
tax, he fails to be concerned with the employer mandate's heavy 
impact on tribes in Indian Country.
    Secretary Payment, could you speak to the burden that the 
employer mandate places on tribes and the need for this 
legislation to exempt them from this mandate?
    Mr. Payment. That question is tailored to me because I have 
been echoing this and speaking loudly on this issue.
    For my tribe in particular, as an example, I am here to 
speak for NCAI but I do have an example. The cost for full 
implementation of the employer mandate is likely to be about $3 
million for my tribe.
    We are beginning to see some of the gains under the 
Affordable Care Act and the reauthorization of the IHS under 
Affordable Care Act, so we are grateful for the Affordable Care 
Act and IHS permanent reauthorization, but we are seeing some 
of the gains we received be erased because of the consequences 
of the employer mandate.
    Probably more importantly in a broader sense, we have met 
with representatives from the White House, is that we need to 
understand the full impact and the unintended consequences 
before implementation, not afterward. We have asked for that.
    There is diversity to the way the funding gets to Indian 
tribes, through direct service tribes, through self-governance 
tribes, and also tribes have insurances and some tribes do not 
have insurance. There is a complex maze to figure out the 
unintended consequence will be.
    I would venture the negative consequence of implementation 
of the employer mandate in Indian Country is probably over $50 
million. I would ask that this be put on hold until after we do 
consultation with tribes and fully appreciate what the full 
costs are going to be.
    Senator Daines. Thank you, Secretary Payment.
    I want to shift gears and talk about wildfires. In 2015, 
Montana experienced one of its worst fire seasons. Montana 
tribal reservations were no exception. In fact, the fires on 
the Blackfeet Reservation were so severe that the tribe opened 
a separate facility for elders and those with special health 
needs who had been displaced by area wildfires.
    Here is one of the challenges. Oftentimes, these fires 
start on Federal lands and then spread to tribal lands. The 
Tribal Forest Protection Act of 2004 did attempt to address 
that problem in a proposal passed in the House to provide 
tribes more freedom to protect tribal trust resources from 
wildfires through active management.
    My question is to Mr. Roberts. Do you support increasing 
tribal authority to more actively manage tribal trust forest 
lands and the neighboring Federal forest lands?
    Mr. Roberts. Personally, I am not familiar with that Act 
but I am generally supportive of obviously greater tribal self-
determination and tribal sovereignty. I understand that the Act 
particularly focuses on the Department of Agriculture. I 
understand it does provide deadlines for certain types of 
funding to be provided to tribes. I think generally we are 
supportive of deadlines.
    I would like to talk more with my colleagues at the 
Department of Agriculture and maybe circle back with your staff 
on questions we might have.
    Senator Daines. We saw some very clear examples where there 
was proper forest treatment and active management and we could 
actually stop some of these fires from spreading, but as you 
know, wildfires are not a respecter of boundaries. That 
interface is very important.
    I would like to have your commitment to work with me and 
the USDA to address these tribal forest resources?
    Mr. Payment. Absolutely.
    Senator Daines. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Daines.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you so much, Mr. Chairman, and the 
Vice Chairman for letting me go first.
    I think when we usually do these hearings in other 
committees there is one agency head sitting in front of us who 
we can hold accountable for outcomes. One of our great 
challenges is the siloing of services for the tribes whether it 
is health care with IHS, which is really HHS, whether it is 
really housing in HUD, whether it is all of the issues that 
fall in all of the above with the Department of Interior and 
obviously, the Department of Justice. I want to say I applaud 
this Administration for doing the most that I have ever seen to 
try and coordinate among all of you to try and build 
relationships across the agencies to change outcomes.
    With that said, we continue to see incredible challenges, 
whether it be housing, Indian education, Indian health care, 
law enforcement, respect for sovereignty and respect for 
consultation. I will start at that juncture. I will be kind of 
rapid fire here because there is so much to discuss.
    Ms. Mason, obviously we have extended invitations to 
Director Comey to come to North Dakota and even Montana to see 
what is happening with the lack of law enforcement personnel 
and the lack of protection for a very vulnerable population. He 
has not responded. I hope you will go back and ask him once 
again, given that you have primary jurisdiction in many of our 
States.
    Ms. Mason. I will share that information with the Director 
but I would also like to point out that in partnership with the 
Department of Interior, the Office for Victims of Crime and the 
Office on Violence Against Women, we have been working 
collaboratively to provide services for victims.
    Senator Heitkamp. It has not stopped drugs from coming onto 
the reservation, trust me. We are debating right now an opioid 
bill, a heroin bill. Let me tell you, if you want to see 
children born under conditions that they should not be born, 
come to any one of my reservations.
    There are people operating there with impunity. That 
crosses over to the problems that we have at Indian Health and 
the problems we have in housing. I want to applaud the great 
work of Secretary Castro. We have had a number of meetings. 
Thank you for mentioning our efforts to get a major summit.
    I am curious about the report, when you expect it to be 
done and when we will be seeing you all in North Dakota or even 
maybe Montana. I have offered to maybe share the responsibility 
but we know we have a housing crisis.
    Ms. Mason. Thank you very much, Senator. We very much 
appreciate the opportunity to continue to do what we can to 
foster public and private partnerships.
    With regards to the housing needs study report, it will be 
completed this year. We are looking at the preliminary.
    Senator Heitkamp. Can you narrow it?
    Ms. Mason. Yes, I definitely can.
    In July of this year, we will release the preliminary 
findings stemming from the report. At that time, the report 
will be made available to the tribes for further tribal 
consultation. We welcome the opportunity to present to this 
Committee the findings of the report.
    The final report will be completed no later than December 
2016.
    Senator Heitkamp. Terrific. I think that is critically 
important, that we look beyond NAHASDA and look beyond what we 
are doing right now. Obviously, it is not getting the job done 
as it relates to Indian housing. That exacerbates all of these 
problems whether it is locating law enforcement, where the 
crimes are being committed or whether it is getting medical 
personnel into critical jobs.
    My last question would be for Ms. Smith, recognizing that 
you have not been at it very long. To follow up on the 
Chairman's comment, we are being asked to provide more 
resources and most of you know that I am in that camp. The 
resources we are currently providing are not adequate to meet 
treaty obligations or fulfill our responsibility, but we need 
to make sure that what is being spent is being spent 
appropriately.
    We look forward to hearing the outcome of what Deputy 
Secretary Wakefield told us was the new structure for analyzing 
these problems and working across the lines but I will 
encourage you and so many members actually qualify for Medicaid 
and could provide a third party reimbursement funding source 
that would, in fact, satisfy some of my hospital's concerns 
that IHS does not pay the bills.
    That happens, so I want to continue to encourage you to 
encourage tribal members to enroll in Medicare and Medicaid. I 
know it is a great concern that somehow that is an abrogation 
or inappropriate given the treaty obligation.
    I hope the National Congress can work with us to get out 
the message. Maybe we can fashion a program that could make 
Indian people more comfortable with getting health care through 
a third party fee-for-payment service.
    Ms. Smith. We are working very hard on encouraging people 
to sign up for Medicaid. I actually spoke to tribal leaders in 
Bismarck, North Dakota two months ago about Medicaid expansion. 
That is exactly the topic we discussed. We are collaborating 
closely with CMS.
    Senator Heitkamp. I will tell you that tribal leaders get 
it. Unfortunately, many tribal members do not. Somehow, we are 
missing that. I think the more advocacy that we can get out 
there, the better the opportunity to expand services and give 
Native American people a choice in where they get their health 
care.
    Thank you, Mr. Chairman. I am sorry I went over.
    The Chairman. Thank you, Senator Heitkamp.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you each for the work that you do.
    I want to begin my questions this afternoon with a general 
comment about consultation. Over the past few months, I cannot 
tell you the number of conversations I have had with Alaska 
Native people, both here in Washington, D.C. and in Alaska, who 
are expressing more concern about the processes and the 
policies around consultation.
    We all know the imperative behind consultation. The Federal 
Government has a duty to consult with tribes and do so in a way 
that is meaningful, not just a check the box exercise.
    In terms of responsibilities that you all have with your 
respective agencies, I look at it and say it has to be one of 
our top responsibilities.
    I am urging all of you within your agencies and departments 
that as you develop your budgets, as you update your 
procedures, in your day-to-day operations, keep these 
consultations as a very high priority because I think some of 
you are doing a better job than others. I will not single out 
anyone, but I will put it front and center that when you are 
doing all that you do on a daily basis, do not forget the 
consultation part of that.
    I did have an opportunity to spend a fair amount of time 
with you, Ms. Smith, in the Appropriations Committee this 
morning. I thank you for that. I also thank you for your 
willingness to come to the State and see for yourself some of 
the issues that we have discussed.
    Ms. Ramirez, I would also invite you to come to rural 
Alaska to see some of the housing issues that you speak very 
informed about but knowing that we have some concerns and some 
issues that are perhaps a little unique.
    I want to ask you specifically about this comprehensive 
housing needs study. You said this is close to completion and 
the results of the study are intended to be used to be the 
driving policy and strategy at HUD.
    This concerns me. It concerns me because I am told that out 
of the 229 federally-recognized tribes in Alaska, there were 
only three that were included in your household survey. That 
was Chickaloon, Unalakleet and King Cove.
    What you have then is a sampling rate that is vastly lower 
for Alaska tribes than tribes in the lower 48. This has been 
brought to the attention of HUD and your contractors. Know that 
I am very concerned about this very important study upon which 
you are going to be basing future decisions.
    I want to make sure that Alaska and Alaska tribes are not 
underrepresented or misrepresented. I need to know that this 
has clearly been brought to your attention.
    Ms. Ramirez. I wanted to provide some context. The housing 
study being conducted by HUD, essentially by our Policy 
Department, is a national study. It is using a statistically 
valid sample.
    We have engaged in substantive tribal consultation. This is 
one of the reasons why there has been a delay. We are working 
very closely with the Alaska tribes. In fact, we held two 
tribal consultation sessions but I will definitely follow up. I 
note your concern and I will follow up.
    Senator Murkowski. I appreciate that because it is 3 out of 
229 tribes and these are very small communities for the most 
part.
    I want to ask you a question Mr. Roberts regarding tribal 
courts. As you know, I have made tribal courts in Alaska a 
priority as well as other P.L. 280 States. We had language 
included in the omnibus in 2015 that directed a study of the 
budgetary needs of tribal courts. Then last year in the 
omnibus, there was $10 million for BIA to pilot systems for 
tribal communities in the P.L. 280 States.
    We are making some progress. As I keep saying, we have our 
foot in the door. The question to you is whether or not you 
have an update for me on how this pilot system may move forward 
and also, the fiscal year 2017 budget request plans to cut the 
funding that we had included, the $10 million, by $8 million 
from the 2016 enacted level.
    The question is on the pilot and then any explanation for 
the proposed decrease?
    Mr. Roberts. Thank you so much for that funding.
    Senator Murkowski. It is important.
    Mr. Roberts. It is extremely important. I heard from a 
number of tribal leaders in Alaska when they were here for NCAI 
about that funding.
    One of the things we are going to do is it is very 
important to get that funding out as quickly as possible but I 
think it is also important to consult with the tribes in the 
P.L. 280 States. To move forward, we are going to have 
telephonic consultations within the next 30 to 35 days. We will 
have a couple of days of telephonic consultations with those 
tribes in the P.L. 280 States on how that funding should be 
utilized.
    I have heard a number of different things from tribes in 
Alaska and elsewhere in P.L. 280 States. I think it is very 
important to have court assessments but I have also heard it is 
very important from those tribes that we actually implement 
some of that money in the tribal courts themselves. That is 
going to be part of the consultation with tribes given that it 
is $10 million.
    As you mentioned, the fiscal year 2017 request had a bump 
up from $15 million of about $2 million. We really appreciate 
all the support. Because the 2016 budget was passed in the 
closing days of the year, we were not able to necessarily 
maintain that funding for the 2017 request but I know I will be 
talking with tribal leaders as part of our tribal Interior 
Budget Council in a couple of weeks.
    I am really hopeful that we can build off the great work 
that you did for the fiscal year 2018 budget. I agree with you 
100 percent. It is very much needed and we are going to try to 
make the best use of those dollars that we can.
    Senator Murkowski. I appreciate that. We really want to try 
to make a success of this.
    I do want to add, Mr. Chairman, I was prepared to kind of 
jump on Mr. Roberts this afternoon about some payments as they 
relate to compact funding that were due to the Bristol Bay 
Native Association, the second largest employer within this 
region. They were looking at having to lay off or furlough some 
of their employees because they have not received their fiscal 
year 2016 compact funds.
    I received notice this afternoon that the issue has been 
resolved and the remaining funds will go out today. I can tell 
you that Ralph Anderson and some of the others at BBNA are most 
appreciative. They have been waiting since December. They are 
very appreciative that this has been resolved.
    Thank you.
    The Chairman. Thank you, Senator Murkowski.
    Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman and Vice Chairman, 
for holding this hearing.
    Mr. Roberts, ever since I first came to the Senate, I have 
been raising alarm about the Bug-O-Nay-Ge-Shig School on the 
Leech Lake Reservation in Minnesota. I have been pushing very 
hard every year to get construction money to rebuild the 
school.
    I was very pleased that Secretary Jewell came to the Leech 
Lake Reservation and had an opportunity not just to see the 
school but to spend some real time there and see firsthand the 
deplorable conditions and what the teachers and students have 
to deal with every day. This is disgraceful, the school. Have 
you had a chance to go to the school?
    Mr. Roberts. I have not yet, Senator.
    Senator Franken. It is drafty, it is cold and structurally 
it is not sound enough so that if the wind blows hard, they 
have to leave the school. In Minnesota, it gets really cold. If 
the wind is blowing more than a certain amount, they have to 
leave and run to another building. It is a deplorable 
condition.
    I have been trying to get this thing rebuilt every year. 
What is the status? Can you tell me?
    Mr. Roberts. Yes. As you mentioned, Secretary Jewell has 
been out there. My predecessor, Kevin Washburn, had visited.
    Everyone I talk to within the department notes the horrible 
condition of the building. It is a building that was never 
really intended for educational purposes at the outset. There 
were some questions by your colleagues about BIA campus-wide 
replacement. The Bug School does not fit in that category 
because it is a single building essentially.
    We do have appropriations. I am hoping that within the next 
30 days or so I will have an answer for you on how we are 
moving forward with the Bug School. That is my hope. I am 
meeting with the chairwoman of Leech Lake I believe later this 
month but I am also meeting internally with the team because 
everything I have heard from our facilities folks is that there 
is not a building in worse condition there.
    I do not have anything for you today except that I am very 
well aware of it and focused. I appreciate you championing this 
issue. I have been to some of the schools on the campus-wide 
construction list. The process we have for school replacement 
right now, we need a lot more resources.
    Senator Franken. Usually when we have these budget 
meetings, it becomes abundantly clear. I just want to say to my 
colleagues on this Committee again, I believe it is our job to 
go to our caucuses and tell them because we are the only ones 
that hear this testimony from Indian Country about our Native 
people.
    We are not honoring our moral obligations or our treaty 
obligations. I think it is something all of us on both sides of 
the aisle need to be telling our caucuses. When we have this 
hearing reporting on the budget, it becomes especially 
apparent.
    I want to talk about opioid use. It has become epidemic in 
Indian Country in Minnesota and in urban settings. While 
American Indian infants in Minnesota make up only three percent 
of kids born in public assistance programs, they make up 28 
percent of the infants born with Neonatal Abstinence Syndrome.
    I know, Ms. Smith, the TIWAHE Initiative is intended to, in 
part, address this. Are you hearing similar rates of opioid 
abuse across Indian Country as I am hearing in Minnesota? How 
will the TIWAHE Initiative or other programs in the budget 
fight this rapidly increasing problem in my State and around 
the Country?
    Ms. Smith. Thank you, Senator, for your leadership on that 
topic.
    Unfortunately, there is a very real problem with opioid 
abuse in Indian Country. We are working on it. In our budget, 
we included $15 million additional funding for our substance 
abuse initiative.
    On an operational basis, we are attacking it on a three-
pronged basis. We have a policy that goes out to our providers 
as to how to prescribe correct dosages. We have mandatory 
training for all our providers. In terms of treatment, we 
utilize what is called the MAT, Medication Assisted Treatment, 
to ensure that we are trying to address this epidemic.
    Senator Franken. That is methadone?
    Ms. Smith. It is not a solution but it is one of the things 
that helps with the problem. We are cooperating with the Bureau 
of Indian Affairs. We have provided Naloxone to Bureau of 
Indian Affairs law enforcement for anecdotes. We rolled that 
out in Oklahoma in the fall and we are going to move that to 
other areas.
    Senator Franken. For ODs.
    I am out of time. I just want to say that epidemic is very 
much tied to the poor housing, poor health care, the job 
situation and sense of hopelessness that the people get when 
they live I those conditions.
    Thank you.
    The Chairman. Thank you, Senator Franken.
    Senator Hoeven?

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. My questions are for Deputy Director Mary 
Smith.
    In your testimony, you note the challenges of recruiting 
and retaining quality health care professionals specifically in 
the Great Plains region.
    Recently, I was informed of the credential process required 
under IHS and I have heard this process is cumbersome because 
it must be renewed every year. I am concerned that this may 
disqualify qualified professionals who are in good standing 
with the State medical boards from working in some of these 
underserved areas.
    I wanted to get your thoughts on that. What is the purpose 
of the credentialing particularly having to go through it every 
single year? Do you think it does have an impact on attracting 
and retaining qualified staff?
    Ms. Smith. Thanks for your question about attracting and 
retaining staff. We do have a number of challenges there.
    In terms of credentialing, obviously credentialing is 
necessary to ensure that we are providing quality health care 
and the providers are credentialed. With respect to our 
credentialing system, I do think there are improvements that 
can be made.
    We have a new quality consortium that is going to look at a 
lot of these quality standards. One area they are looking at is 
a more uniform credentialing process that would allow more 
flexibility for providers.
    I appreciate your question.
    Senator Hoeven. Is that a change you anticipate you will be 
making or is that something you are just looking into?
    Ms. Smith. I think we will make changes. I do not know 
specifically what changes. One of the things we are looking at 
is a different software package for credentialing. I do not 
have an answer today on whether that will go forward but we 
definitely will make changes to streamline the process.
    Senator Hoeven. Do you have any estimate on a timeline for 
that?
    Ms. Smith. I hope we would be able to do at least some 
changes this year.
    Senator Hoeven. Something this year?
    Ms. Smith. Yes.
    Senator Hoeven. As you know, there have been serious 
problems at the IHS facilities in the Great Plains region. Many 
of the problems, in some cases, were due to lack of funding. 
There is no question about it. In other cases, it is a lack of 
accountability.
    In your opinion, how does the President's budget leverage 
resources to empower IHS facilities and hold them accountable? 
One of the things we talked about was trying to leverage IHS 
resources to address the resource issue.
    How do you do that? How do you get accountability, make 
sure that you have accountability for performance on the part 
of IHS?
    Ms. Smith. It is not easy sometimes but I think it is 
creating a culture of quality and accountability. I think it 
starts at the top and I think you need key leadership 
positions. One of the things we are doing and there is money 
for this in the budget, there is $2 million for our quality 
consortium.
    As I mentioned, we have created a new position, Deputy 
Director of Quality. We are going to be setting up a quality 
system which is essentially a compliance system with training. 
We are going to be working to ensure that the systems are in 
place and people are held accountable. I think that was one of 
the reasons why those problems arose in the Great Plains.
    That is one of the top priorities we will be addressing 
this year.
    Senator Hoeven. I think there are other service providers 
you can partner with to leverage your resources but as part of 
that, going to accountability, is reimbursement to hospitals, 
clinics, doctors and others that do provide services either on 
or off the reservation.
    They have a real problem with backlog in accounts 
receivable or collecting those receivables from IHS. Anything 
you can do to make sure IHS, working with the tribes, gets 
payment out to those health care providers on a timely basis is 
not only important for the service providers and health care 
providers, but will help generate more services both on and off 
the reservation for Native people.
    Ms. Smith. Yes, I agree about leveraging the resources and 
ensuring prompt payment. I actually was talking to the person 
who runs our purchase referred care program yesterday about the 
process she is putting in place to try to streamline those 
payments.
    Senator Hoeven. Anything you can do, because we really hear 
from the health care providers that they have a real problem 
collecting those receivables. Any help in that area would be 
much appreciated.
    Thank you.
    The Chairman. Thank you, Senator Hoeven.
    Senator Tester?
    Senator Tester. I want to thank the panelists for being 
here today. I am going to start with you, Karol.
    The grant fund to implement VAWA is $5 million. Last year, 
I believe it was $2.5 million. Correct me if I am wrong. Is $5 
million going to be adequate?
    Ms. Mason. As you know, in March 2015, we went into full 
implementation of the expanded ability to prosecute non-Native 
offenders for domestic violence. We have 45 tribes who are 
participating in our voluntary intertribal working group, so we 
expect the five that have been exercising it since 2014 plus 
the others who will now implement it, we expect we will have 
many more people applying for the money than we have available.
    Senator Tester. Is $5 million going to be adequate?
    Ms. Mason. We will make it adequate, but the need exceeds 
that.
    Senator Tester. That is all I need to know.
    The DOJ appendix to the President's budget mentions 
allocating $1 million for research on violence against Native 
women?
    Ms. Mason. Yes.
    Senator Tester. It is in the same section as the VAWA 
implementation. Is that $1 million coming out of the $5 million 
or is it separate?
    Ms. Mason. No, that is a separate funding source.
    Senator Tester. That is good news.
    Now I will go to you, Larry. You have heard this before. We 
will come in and talk to you about different issues in Indian 
Country, and they have a lot. We often say to you, you have to 
fight harder during the budget process to make sure this budget 
meets the needs of Indian Country. Does this budget meet the 
needs of Indian Country?
    Mr. Roberts. I do think the budget reflects the President's 
commitment to Indian Country. As I said earlier, the 
discretionary funding across Federal agencies is less than 1 
percent increase.
    Senator Tester. I got you, but that was not my question.
    Mr. Roberts. I know. What I will say is tribes still have 
not regained their footing from sequestration. That was $142 
million. I know this Congress, many of you, for the 2016 budget 
helped us.
    Senator Tester. What I hear you saying is, this is the best 
you could do but it still is not adequate?
    Mr. Roberts. I think everyone knows there are still 
additional needs in Indian Country.
    Senator Tester. Okay. I want to go back to what the 
Chairman said when he opened. If you have metrics you can bring 
to this Committee that justify these increases in budget, it 
would be very, very helpful.
    Quite frankly, I do not think there is anyone on this 
Committee who does not understand that some or all of the 
programs within the BIA are in trouble. Sequester, the Obama 
Administration has done a pretty good job but it was so bad, 
they had a long ways to go.
    Mr. Roberts. Some of the metrics that we can provide 
tomorrow are the great work that we have done in Indian Country 
with tribes on preventing violent crimes and reducing 
recidivism.
    Senator Tester. I got it. Otherwise we just bring you in 
and hammer you. That is why it is important. We have an 
obligation.
    The loan guarantee program, we have heard from tribes, 
tribal organizations and entities that do business in Indian 
Country that the BIA Loan Program is a great economic 
development tool. God knows in my neck of the woods, they need 
economic development and in Indian Country.
    This is level funded. Is that because the requests for the 
BIA Loan Guarantee Program have been flat?
    Mr. Roberts. It is a great program. We could use more. We 
cannot always bump up everywhere across the budget, so we focus 
on schools, youth and social services. It is a great program. 
We are doing the most we can that leverages dollars for Indian 
Country.
    Senator Tester. All right. I want to go to Ms. Ramirez.
    This year's budget proposes a $50 million increase in the 
Native Housing Block Grant Program, which is good. I have had 
previous questions about the housing but it has been stagnant 
for almost 20 years.
    I appreciate the advocacy for a bump up. Number one, do you 
feel that these additional dollars would be able to get out the 
door?
    Ms. Ramirez. Yes, Senator, I definitely believe the dollars 
will be able to get out the door and that the tribes will be 
able to invest and make use of these dollars.
    Senator Tester. Do you think this program is critically 
important when it comes to housing needs in Indian Country? Is 
this one of the big programs or is this just kind of an 
ancillary program and there are others out there that can 
fulfill this need?
    Ms. Ramirez. Senator, this is the core program of NAHASDA. 
This is the single source of funding that provides tribes the 
opportunity to develop affordable housing and renovate.
    Senator Tester. Can I ask you a question? If this is the 
primary one, have you done an assessment on the standards of 
housing in Indian Country like what percentage is substandard? 
Have you been able to do any of that?
    Ms. Ramirez. We have, Senator. I mentioned earlier that we 
are in the process of completing a housing needs study that 
speaks to the conditions of housing.
    Senator Tester. What has that study shown? Are they 80 
percent substandard, 50 percent substandard or 10 percent 
substandard?
    Ms. Ramirez. In 2014, we released some preliminary results 
using the Census and American Community Survey. A few key 
statistics that were included were that there is a severe 
overcrowding problem in Indian Country, three or four times 
that of the national average.
    We also know, Senator, that tribes are having to use more 
of their IHGB funding to rehabilitate and renovate existing 
stock and less is going to the creation of new and affordable 
housing.
    Senator Tester. Thank you for the courtesy, Mr. Chairman.
    The Chairman. Thank you, Senator Tester.
    I am going to start a second round. Would you like to 
start, Senator Heitkamp?
    Senator Heitkamp. Thank you, Mr. Chairman.
    I have a couple things that do not go necessarily to this 
budget but the potential for change. One, obviously, is 
something we have been working on in this Committee. That is 
looking across the board on trauma, making sure that we have 
trauma-informed health care professionals, making sure that we 
have trauma-informed and trauma-based folks in our Department 
of Justice and the Bureau of Indian Education, making sure that 
everybody understands this kind of new brain research that is 
going on.
    I will kind of warn you that I will continue to be a broken 
record as it relates to trauma as a potential path forward for 
change.
    The other thing we obviously have been talking a lot about 
this week has been opioid abuse and heroin abuse. I met 
yesterday with a number of folks. It is that time of the year.
    One of the meetings that sparked a great deal of interest 
in me was when I met with the women representing the OB-Gyns. 
They believe that there are prescription medications that are 
dispensed in a different way. I cannot speak to all the options 
out there that would actually provide treatment that is not 
methadone treatment for women who are addicted and who are 
pregnant.
    I am wondering whether Indian Health has taken an active 
look at other kinds of treatment options available for 
addiction, especially with pregnant women.
    Ms. Smith. Yes, we are working on a multi-pronged approach 
with opioid dependence. We have a Division of Behavioral 
Health. I talked yesterday with Dr. Cotton who heads that 
division about the opioid crisis.
    I know we are looking at a number of different things. If 
we are doing anything specifically with respect to pregnant 
women, I can get you that information.
    Senator Heitkamp. We have been looking at it, but in the 
meantime, this has basically ballooned into a full-blown, 
absolute, horrible crisis, especially in Indian Country but 
across the Country, but especially in Indian Country in North 
Dakota.
    So if we are not pursuing state-of-the-art treatment 
options, then we are going to fail. If we are not offering help 
when people come in who desperately need help in dealing with 
their addiction come in, obviously from the standpoint of many 
of those who provide services to pregnant women, there is a big 
incentive for women to look at addiction and change behavior. 
To me there is a real option to get this done.
    One of the frustrations I have with Indian Health is you 
continue to do what you have always done over and over and over 
again and expect a different result in Indian Country. It is 
not going to happen. We have to change how we approach it and 
we have to look at a system that really treats the family, a 
system that treats the individual and does not just say, okay, 
here is your diabetes, and expect people to be compliant when 
they are addicted.
    It just is not going to happen. We will continue to spend 
dollar after dollar without really treating the individual. So 
I would appreciate any information on the structure you plan on 
pursuing, especially for addicted pregnant women, which has 
become a crisis.
    In fact, we have heard reports of women in Three 
Affiliated, that 50 percent of the babies are born from women 
who are addicted. I have heard the same kind of information up 
at Turtle Mountain. That is not a formula for a successful 
society in any case.
    It falls on your shoulders and we expect to know what we 
are doing about it.
    Thank you, Ms. Smith.
    The Chairman. Thank you, Senator Heitkamp.
    Ms. Ramirez, in the President's budget, your office 
proposes to raise the Indian Housing Loan Guarantee Program, 
the annual fee, from 15 basis points to 25 basis points. The 
impact on the budget request equates to about an $11 increase 
of a tribal homebuyer's monthly mortgage about $130 per year.
    This increase is now going to be assessed to I think some 
of the people who are most at risk as homeowners. Further on in 
the proposed budget, you stated tribal consultation will take 
place prior to implementation of this change in the policy 
raising it from 15 basis points to 25 basis points.
    Currently, you use a negotiated rulemaking to conduct truly 
meaningful tribal consultation. Despite a few recent concerning 
examples, this appears to be a successful model for tribal 
consultations.
    Are you going to be open to using this negotiated 
rulemaking to implement this increase in the 184 Program annual 
fee and how do you plan to go ahead with that?
    Ms. Ramirez. As you stated, the Loan Guarantee Program is a 
critical program in Indian Country. We know that this is a 
program that works and enables the opportunity for 
homeownership.
    With regard to the modest annual fee increase, this modest 
annual fee increase is driven by the Credit Reform Act of 1990. 
It is not a program of NAHASDA, hence, it is not subject to a 
negotiated rulemaking.
    However, Mr. Chairman, you have our full commitment that as 
we begin to have further discussions with tribes, we will 
engage in tribal consultation on the changes to the 184 
Program, and also on the opportunities for the department to be 
able to improve the program in general.
    The Chairman. Thank you.
    Mr. Roberts, the BIA Road Maintenance Program is 
responsible for maintaining almost 29,700, almost 30,000, miles 
of BIA-owned roads and 931-owned bridges constructed with 
Federal funds.
    The Administration's requested funding level for this 
current fiscal year provides a level of need to maintain only 
16 percent of the roads and 62 percent of the bridges in 
acceptable condition. The funds are used to simply maintain the 
current conditions.
    Far too many public roads and bridges on Indian 
reservations are in poor or failing conditions as I drive the 
Wind River Reservation. If only 16 percent of the BIA roads and 
62 percent of the bridges are going to be in acceptable 
condition, how can we safely get kids to school and drive 
someone to the hospital if they do not have safe roads on which 
to drive?
    Is the funding level of the President's budget too low 
given the importance of roads in tribal communities?
    Mr. Roberts. It is of incredible importance in Indian 
Country. We hear about it all the time. The Department of 
Transportation takes the lead on those funding issues.
    I will say the President's budget, as you said, Mr. 
Chairman, reflects maintaining the roads you identified as in 
moderate or acceptable condition. It is extraordinarily 
challenging to improve infrastructure in this fiscal climate. I 
share your concern about the issue.
    The Chairman. In addition to transportation, I want to go 
to education. In the President's fiscal year 2017 budget 
request, the education funding request is increased. We all 
understand the urgent need to fix the broken school systems.
    I would like to bring to your attention the request for 
$24.8 million for ``education management.'' Can you discuss 
what type of services ``education management'' provides?
    Mr. Roberts. Absolutely, Mr. Chairman. Basically, the 
President's budget requests an $8 million plus up for $24 
million overall for that line. The plus up is for essentially 
15 positions for contracting, acquisitions, construction, 
construction budget planning, and IT education specialists.
    It is the 15 positions that we need for BIE to address 
those services under the reorganization. It is looking at human 
resource specialists, recruiters, budget planning and those 
types of things. I am more than happy to provide additional 
information to your staff on that funding.
    The Chairman. Secretary Mason, I want to talk about the 
Vision 21 Project that focuses on current crime victimization, 
underserved and unserved communities, enhancing partnerships 
and improving integration of crime victims' rights.
    It is intended to facilitate the ability of networks to 
meet current and future crime victim needs, organizational 
flexibility, stronger collaboration, things you have talked 
about previously, collaboration of further crime victims' 
rights and services.
    The President's budget request includes a project grant for 
tribal victims of violence. Can you talk about how the 
development of these grants will be tailored for tribal 
communities and incorporate tribal consultation prior to 
actually announcing the grants?
    Ms. Mason. The $25 million request in the President's 
fiscal year 2017 budget is designed to give us more flexibility 
than we currently have with the VOCA funding. We have a history 
at the Office of Victims of Crime of consulting with the 
tribes. This request is as a result of having numerous 
conversations with our tribal partners.
    The Chairman. Senator Tester, do you have any additional 
questions?
    Senator Tester. I do. Thank you, Mr. Chairman.
    I want to go back to you, Larry. There is a request in here 
and I think you discussed it in your testimony, of $4 million 
for the Native One-Stop Initiative. Is there more to it than an 
Internet site?
    Mr. Roberts. Absolutely, Senator. Basically, all of the 
different agencies across the Federal Government feed their 
information into this Internet site to provide information to 
tribes and individuals.
    They can access the programs. Say they have a housing 
issue, they can access that site and see HUD has a program and 
we have a program.
    Senator Tester. Let me refine my question.
    Mr. Roberts. Sure.
    Senator Tester. Is there funding for a physical site to go 
to or is it all an internet site?
    Mr. Roberts. My understanding is it is all internet at this 
point.
    Senator Tester. This must be one hell of an internet site 
for $4 million. That is a lot of dough for an internet site.
    Mr. Roberts. Fair enough but when you have a number of 
different Federal agencies across the government working in 
Indian Country, there is quite a bit of data to compile.
    Senator Tester. I have no doubt about that.
    Broadband is pretty deficient in Indian Country. Are we 
building something they will not have access to? I will preface 
this by saying I think it is a great idea but if they do not 
have Internet service, how are they going to access the 
website?
    Mr. Roberts. The President's budget does support additional 
broadband access to BIE schools, so there are increases. I am 
not sure what the other Federal agencies have for broadband but 
I do not think this internet site is going to be something that 
needs the highest capabilities.
    I think tribes will be able to access it. It is something 
tribes have been asking us for, sort of a one-stop where they 
can find and identify those programs that serve them. I think 
it is well worth the small investment. Hopefully, it saves 
tribes a lot of money as they go through that process.
    Senator Tester. Your testimony also talks about an Office 
of Justice Services to assist tribes in adopting and updating 
the tribe court codes and the same thing for uniform commercial 
codes. Is any of that work being done now?
    Mr. Roberts. I believe it is. I would have to get more 
information for you on that.
    Senator Tester. Once again, I think it is a great idea. My 
next question would be do you have the infrastructure to do 
this?
    Mr. Roberts. We have a great team in OJS. I just do not 
have the details on that for you right now, Senator.
    Senator Tester. Okay.
    I have one last question for Ms. Ramirez if I might, Mr. 
Chairman, that has to do with the Home Loan Guarantee Program.
    This is one of the programs we saw cut from last year's 
budget. Quite frankly, when I listen to Native Americans, they 
want this expanded to even include Native Americans who live 
off reservation.
    I have two questions for you. One, would you support that 
if this program was expanded to be able to use these loan 
guarantees for homes outside of the reservation borders?
    Ms. Ramirez. In principle, Senator, yes, I would support 
it. I would need to look into the technical requirements behind 
the Loan Guarantee Program because I know it was designed for 
Indian Country, but yes, I think anything we can do to expand 
and increase homeownership opportunities.
    Senator Tester. The second thing is kind of the same 
question I asked others about different programs. This is a 
pretty doggone good program and it is being cut. What is the 
justification? Is it simply dollars? You had to cut somewhere, 
so this is the one that got the axe?
    Ms. Ramirez. Our request for $5.5 million for fiscal year 
2017 takes into account carryover funds that we are projecting 
from prior years.
    Senator Tester. How much carryover do you have?
    Ms. Ramirez. Close to $1 million. We are projecting close 
to $1 million of carryover funds.
    Senator Tester. On one hand, that is good. We will just 
leave it at that.
    Thank you, Mr. Chairman. I appreciate it.
    I appreciate all of your testimony. I grilled Mary pretty 
hard this morning, so I told her I would let her off the hook 
this afternoon. Aaron, I am sorry. I will get you next time.
    Thank you.
    The Chairman. Thank you, Senator Tester.
    Following up on what Senator Tester discussed with Mr. 
Roberts on broadband deficiency in Indian Country. If you put 
all this effort into a state-of-the-art website where all this 
information can be integrated, can you talk a little bit about 
how the needs are because there is some infrastructure lack in 
communities?
    Mr. Roberts. I testified earlier about some of the hard 
infrastructure, when you think of infrastructure like pipes, 
Indian Country is largely neglected with that. In Indian 
Country, we have built basically what we do have.
    In my tribe's case, we were recognized late, in 1972, so we 
have had to acquire everything we have. Most of what we were 
able to acquire was old swampland, so we are in rural 
communities and old swampland where we have to build the 
infrastructure ourselves.
    Broadband is certainly a critical need in Indian Country. 
We are not as rural as most other tribal communities, so we do 
have some access but our access is limited.
    We have council meetings in the districts and find that we 
do not have the ability to connect. Our tribal staff at those 
sites looks at us and kind of laughs because we cannot connect. 
They live with that day to day and try to do their jobs day to 
day.
    I would say absolutely, the program we are talking about is 
a wonderful concept which is to connect across agencies. We 
talked about that recently at STAC, to try to get some 
permanency across agencies.
    If that is going to work, tribes have to have access. 
Otherwise, we are building a structure that is not going to be 
used by Indian people.
    The Chairman. That means not the best use of resources, a 
loss of opportunity to use the resources there?
    Mr. Roberts. I do not want to get in the middle of a fight.
    The Chairman. If there are no more questions for today, 
members may also submit written follow up questions for the 
record. The hearing record will be open for two weeks.
    I want to thank all of you for being here, for your time 
and your testimony today.
    This hearing is adjourned.
    [Whereupon, at 3:52 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Response to Written Questions Submitted by Hon. James Lankford to 
                               Mary Smith
    Question 1. For much of the last century, the Bureau of Indian 
Affairs has served as the federal government's lead agency for programs 
serving American Indians and Tribes. However, there are also whole 
federal departments, such as the Department of Justice or the 
Department of Housing and Urban Development,that serve as subject 
matter experts for their service area. These departments often have 
greater resources and abilities to provide a service but they sometimes 
lack BIA's ability to communicate on a government-togovernment level 
with tribal governments. How can we maximize the impact of federal 
services by pairing the abilities of both sides?
    Answer. Tribal Consultation is a valuable tool in maximizing the 
impact of federal services to American Indian and Alaska Native (AI/AN) 
peoples. The United States has a government-to-government relationship 
with AI/AN Tribes that is based on treaties, law, Presidential 
executive orders, and numerous court decisions. In this federal policy 
era of Self-Determination, Tribal Consultation is considered an 
essential element for a sound and productive relationship with AI/AN 
Tribes and tribal organizations. Tribal Consultation has been affirmed 
by Executive Orders 12866, 13084, and 13175, and through Presidential 
Memoranda in 1994, 2004, and 2009. Federal agencies maximize impact 
when they commit to regular and meaningful consultation and 
collaboration with eligible tribal governments. Further, tribal 
consultation has enhanced federal government services and programs in 
Indian Country within a framework of tribal self-determination.
    Like the Bureau of Indian Affairs (BIA), the Indian Health Service 
(IHS) has experienced much success through Tribal Consultation. In 
1997, the IHS Director promulgated the first comprehensive Tribal 
Consultation and Participation Policy in the federal government. The 
policy established a minimum set of expectations for IHS staff with 
respect to consulting and working with tribal leaders. The IHS Tribal 
Consultation Policy has been revised and updated several times. The 
current policy from 2006 can be referenced at IHS Circular No. 2006-01. 
The IHS conducts a variety of consultation activities with Tribal 
leaders and representatives of Tribal governments, including national 
meetings, regional inter-tribal consultation sessions, meetings with 
delegations of leaders from individual Tribes, Area consultation 
sessions, and tribal advisory workgroups. In recent years, tribal 
leaders and representatives have carried out significant roles in the 
IHS budget formulation and setting health priorities at the national 
and regional levels.
    The increased involvement of Tribes in advising and participating 
in the decision-making process of the Agency has resulted in stronger 
collaborations between the federal government and tribal governments; 
innovations in the management of programs; and important issues being 
brought forward for consideration by IHS, the Administration, and 
Congress in a timely fashion.
    In 2011, the IHS, BIA and DOJ addressed issues such as substance 
abuse through the Indian Alcohol and Substance Abuse Agreement between 
the U.S. Department of Health and Human Services, the U.S. Department 
of Interior, and the U.S. Department of Justice, which is referenced at 
the Internet address: https://www.justice.gov/sites/default/files/
tribal/legacy/2014/02/06/tloa-iasa-memo-aug2011.pdf. These Agencies 
agreed to establish a framework for the coordination of Tribal 
Consultation activities as necessary, relating to the federal 
activities to be developed and implemented in accordance with the 
memorandum of agreement (MOA). IHS, BIA, and DOJ have also partnered in 
a number of other interagency initiatives, such as in the area of 
domestic violence. The leadership for these Agencies, as well as those 
from the Department of Housing and Urban Development can continue to 
collaborate on critical issues in Indian Country (i.e., sanitation and 
housing shortages) to maximize the impact of federal services, and 
share best practices (i.e., Tribal Consultation) and their respective 
resources.

    Question 2. What actionsdo you take at a leadership level to ensure 
your department is not duplicating a tribal service provided by another 
department?
    Answer. The Division of Environmental Health Services (DEHS) 
collaborates with other Federal programs such as the Housing and Urban 
Development (HUD), Food and Drug Administration (FDA), Center for 
Disease Control and Prevention (CDC), the Environmental Protection 
Agency (EPA), and the Bureau of Indian Affairs (BIA). Through these 
collaborations, the IHS DEHS program has knowledge of services provided 
by other federal departments and can ensure that we are not duplicating 
services. The collaborations enhance the ability of each department to 
address their program missions.
    Collaboration examples include:

  <bullet> DEHS is an active participant of the HUD Healthy Homes 
        Working Group.

  <bullet> DEHS is supporting the FDA/Center for Food Safety and 
        Applied Nutrition (CFSAN) by serving on an objective review 
        committee for a grant supporting Native American Tribes 
        outreach, education, and training to enhance food safety and 
        Food Safety and Modernization Act compliance.

  <bullet> Supporting an IHS Injury Prevention Liaison position within 
        the CDC National Center for Injury Prevention and Control. This 
        interagency agreement focuses on injury issues impacting AI/AN.

  <bullet> Supporting regional integrated pest management initiatives 
        through agreements with the EPA in several IHS Area Offices.

  <bullet> Ongoing local collaboration with BIA/Bureau of Education 
        regarding school and correctional facilities environmental 
        health and safety inspections.

    The Division of Facilities Planning and Construction is the 
headquarters focal point for the planning of new and replacement health 
care facilities. The Indian Health Service follows a publically 
available, congressionally adopted health facilities construction 
priority list that is not duplicated by another department. It is not 
uncommon for multiple departments to collaborate with tribes in 
developing health care facility projects, always being aware of 
respective contributions to preclude duplication.
    The Division of Sanitation Facilities Construction (DSFC) on behalf 
of the Department of Health and Human Services (HHS) has been 
participating since 2007 in the Infrastructure Task Force (ITF). The 
goal of the ITF is to reduce the number of tribal homes lacking access 
to safe drinking water and basic sanitation. In addition to HHS the ITF 
includes federal representatives from Environmental Protection Agency, 
the Department of Housing and Urban Development, the Department of the 
Interior, and the Department of Agriculture. The multi-agency task 
force was created to coordinate federal activities in delivering water 
and waste infrastructure that provides safe drinking water and basic 
sanitation to tribal communities. More information about the ITF can be 
found here: https://www.epa.gov/tribal/federal-infrastructure-task-
force-improve-access-safe-drinking-water-and-basic-sanitation

    Question 3. Please provide a complete list of all programs and 
funding opportunities offered by your department for tribes and 
individual American Indians,their individual funding level, the metrics 
used by the department to gauge the program's effectiveness, and how 
the program meets these metrics.
    Answer. Under the Indian Self-Determination and Education 
Assistance Act, Tribes have the opportunity to contract or compact any 
of the line items, or parts thereof, shown on the FY 2017 Crosswalk, 
Budget Authority, Estimated Distribution table shown on page CJ-14 of 
the IHS FY 2017 President's Budget. This table also shows the total 
estimated amounts the tribes get in each budget line item of which an 
example of further breakout is the Self-Governance Funded Compacts on 
pages CJ-235 through CJ-237 (FY 2015 data).
    IHS also provides grants to Tribes and Urban Indian Organizations 
through limited competition grant announcements. Included in these 
grants are:

        a) Domestic Violence grants (page CJ-59)
        b) Behavioral Health grants (pages CJ-91, 97, 99-100)
        c) Tribal specific grants (pages CJ-147, 155)
        d) Special Diabetes Program for Indians grants (page CJ-192)
        e) Urban Indian Organization grants (page CJ-131)

    To assist in the recruitment and retention of medical 
professionals, IHS also offers scholarships and a loan repayment 
program (pages CJ-140, 142-143).
    Following are summary tables of current, active programs with 
descriptions,

    CFDA number, number of funded actions, and obligated amounts for 
FY2015 and FY2016 respectively.


               Fiscal Year 2015 Summary and Detail Report
------------------------------------------------------------------------
                                             # Funded
    Grant Program Description        CFDA     Actions   Obligated Amount
------------------------------------------------------------------------
Children & Youth Projects (CYP)      93.933         0              $0.00
Dental Preventive Clinical           93.933         5      $1,250,000.00
 Support (TDCP)
Development Grants for IHS or        93.228        14      $1,164,442.00
 Facilities (TMD)
Diabetes - Community Directed        93.237       241     $67,168,145.00
 (SDPIP)
Diabetes - Prevention/Healthy        93.442        57     $19,067,846.00
 Heart Initiatives (SDPI-DPHHI)
Diabetes - Prevention/Healthy        93.442        12      $4,400,500.00
 Heart Initiatives Federal (SDPI-
 DPHHIF)
Diabetes - Self Governance           93.237        83     $38,240,654.00
 (SDPIS)
Diabetes- Federal Service Units      93.237        29     $11,555,887.00
 (SDPIF)
Domestic Violence Prevention         93.933        47      $5,832,680.00
 Initiative (DVPI)
Epidemiology and Disease             93.231        12      $9,789,577.00
 Prevention (EP1)
Health Professional Recruitment      93.970         1         $25,000.00
 Program (HPR)
Healthy Lifestyles in Youth (HLY)    93.933         2      $1,250,000.00
HIV National Program (OCPS-HIV)      93.933         6        $496,000.00
Indians into Medicine (InMed)        93.970         3      $1,097,364.00
Indians into Psychology (InPsy)      93.970         3        $715,077.00
Injury Prevention Program (IPP)      93.284        24      $1,242,398.00
Meth & Suicide Prevention-Urban      93.933         6        $599,846.00
 (METHU)
Methamphetamine and Suicide          93.231       103     $11,009,467.00
 Prevention Initiative (MSPI)
National Council of Urban Indian     93.933         2      $1,233,089.00
 Health (UIHP3)
National Indian Health Outreach      93.933         1        $782,429.00
 and Education I - Policy/Budget/
 Diabetes
National Indian Health Outreach      93.933         2        $250,000.00
 and Education II - MSPI and HIV/
 AIDS
National Indian Health Outreach      93.933         2        $500,000.00
 and Education III - Health
 Reform
Native American Research Centers     93.933        21      $9,903,538.00
 for Health (NARCH)
Nursing Schools (NU)                 93.970         5      $1,466,973.00
Public Health Nursing (PHN)          93.933        10      $1,500,000.00
Tribal Self Governance-              93.444         2         $96,000.00
 Negotiation (TSGN)
Tribal Self Governance-Planning      93.444         5        $599,423.00
 (TSGP)
Urban Indian Health Program (4-in-   93.193        36      $8,278,461.00
 1) (UIHP2)
Urban Indian Health Program          93.193        11        $100,000.00
 (Title V HIV/AIDS) (UIHP1)
------------------------------------------------------------------------
    Overall - Total                               745    $199,614,796.00
------------------------------------------------------------------------


           Fiscal Year 2016 to date Summary and Detail Report
------------------------------------------------------------------------
                                             # Funded
    Grant Program Description        CFDA     Actions   Obligated Amount
------------------------------------------------------------------------
Dental Preventive Clinical           93.933         0              $0.00
 Support (TDCP)
Development Grants for IHS or        93.228         0              $0.00
 Facilities (TMD)
Diabetes - Community Directed        93.237       169     $66,801,152.00
 (SDPIP)
Diabetes - Prevention/Healthy        93.442         0              $0.00
 Heart Initiatives (SDPI-DPHHI)
Diabetes - Self Governance           93.237        92     $52,656,246.00
 (SDPIS)
Diabetes- Federal Service Units      93.237        16     $16,670,365.00
 (SDPIF)
Domestic Violence Prevention         93.933         1        $140,000.00
 Initiative (DVPI)
Epidemiology and Disease             93.231         7        $470,000.00
 Prevention (EP1)
Health Professional Recruitment      93.970         0              $0.00
 Program (HPR)
Healthy Lifestyles in Youth (HLY)    93.933         0              $0.00
Indians into Medicine (InMed)        93.970         1        $700,000.00
Injury Prevention Program (IPP)      93.284         0              $0.00
Methamphetamine and Suicide          93.231         9        $764,332.00
 Prevention Initiative (MSPI)
National Council of Urban Indian     93.933         0              $0.00
 Health (UIHP3)
National Indian Health Outreach      93.933         1         $36,000.00
 and Education II - MSPI and HIV/
 AIDS
Native American Research Centers     93.933         0              $0.00
 for Health (NARCH)
Nursing Schools (NU)                 93.970         0              $0.00
Public Health Nursing (PHN)          93.933         0              $0.00
Urban Indian Health Program (4-in-   93.193        13        $727,533.00
 1) (UIHP2)
Urban Indian Health Program          93.193         0              $0.00
 (Title V HIV/AIDS) (UIHP1)
------------------------------------------------------------------------
    Overall - Total                               309    $138,965,628.00
------------------------------------------------------------------------

    Program effectiveness is evaluated by the respective Program staff/
officials, as are any established metrics to evaluate program 
effectiveness. The purview of the Division of Grants Management (DGM) 
at IHS is primarily administrative (compliance with terms of award, 
timely submission of required progress and financial reports, etc.). 
DGM is responsible for managing the grants that support the programs. 
Continued funding is based upon the satisfactory progress and the 
availability of funds, whereas satisfactory progress is evaluated 
predominantly by the respective program staff, with input provided to 
DGM staff for consideration.
    The Special Diabetes Program for Indians (SDPI) grant program has 
provided funds to AI/AN communities for diabetes treatment and 
prevention since FY 1998. It is currently funded at $150 million per 
year through FY 2017. SDPI has just completed a competitive application 
process for a new five year grant cycle and has awarded funds to 301 
IHS/Tribal/Urban grantees in 35 states.
    Since the inception of SDPI, many clinical indicators have shown 
significant improvement, importantly:

  <bullet> Slowing of the rise of diabetes prevalence: From 2001-2005, 
        there was a relative increase in age-adjusted diabetes 
        prevalence in AI/AN adults of 2.2 percent per year on average, 
        while from 2006-2013, diabetes prevalence increased only 0.8 
        percent per year on average. \1\
---------------------------------------------------------------------------
    \1\ IHS National Data Warehouse

  <bullet> Childhood obesity rates have levelled off: Rates of obesity 
        in AI/AN children and youth aged 2-19 years remained nearly 
        constant from 2006-2013. \1\
  <bullet> Improved blood sugar control: Average blood sugar (as 
        measured by the A1C test) in AI/AN patients with diabetes 
        decreased from 9.0 percent in 1996 to 8.1 percent in 2015, 
        nearing the A1C goal for most patients of less than 7 percent. 
        \2\
---------------------------------------------------------------------------
    \2\ IHS Diabetes Care and Outcomes Audit

  <bullet> Improved blood lipid levels: Average LDL cholesterol in AI/
        AN patients with diabetes decreased 22 percent from 118 mg/dL 
        in 1998 to 94 mg/dL in 2015, well below the target of 100 mg/
---------------------------------------------------------------------------
        dL. \2\

  <bullet> Reduced kidney failure: From 2000 to 2011, the rate of new 
        cases of kidney failure due to diabetes leading to dialysis 
        declined 43 percent in AI/AN people. This is a much larger 
        decline than in any other racial group in the U.S. \3\
---------------------------------------------------------------------------
    \3\ United States Renal Data System

    While there is no way to determine how much of this tremendous 
progress can be attributed to SDPI, no other program has provided 
significant and consistent funding to address diabetes in AI/AN 
communities. Diabetes is a costly disease to prevent and treat and many 
of the services needed to do this are either poorly reimbursed or not 
reimbursed at all by whatever third party insurance patients may have. 
However, not providing these services results in far greater costs in 
the long run. As noted above, there have been remarkable improvements 
in many important diabetes measures since SDPI started in FY 1998. 
Without SDPI, it would be difficult to expect any further improvements 
and much of what has been achieved could be reversed. SDPI is one of 
the most successful programs ever established to improve the health of 
AI/AN people.
    The Substance Abuse and Suicide Prevention program, formerly known 
as the Methamphetamine and Suicide Prevention Initiative (MSPI), is a 
nationally-coordinated program focusing on providing much-needed 
substance abuse and suicide prevention and intervention resources for 
Indian Country. This initiative began in 2010 and continues today as a 
$13.5 million grant program to promote the use and development of 
evidence-based and practice-based models that represent culturally-
appropriate prevention and treatment approaches to substance abuse 
disorders and suicide prevention from a community-driven context. From 
2009-2015, MSPI resulted in over 12,200 individuals entering treatment 
for methamphetamine abuse; more than 16,560 substance use and mental 
health disorder encounters via telehealth; over 16,250 professionals 
and community members trained in suicide crisis response; and more than 
690,590 encounters with youth provided as part of evidence-based and 
practice-based prevention activities.
    The Domestic Violence Prevention Program (DVPP), formerly known as 
the Domestic Violence Prevention Initiative (DVPI) is a $8.967 million 
congressionally mandated, nationally coordinated grant and federal 
award program for Tribes, Tribal organizations, federally operated 
programs, and Urban Indian organizations to provide violence prevention 
and treatment services. The DVPP promotes the development of evidence-
based and practice-based models that represent culturally appropriate 
prevention and treatment approaches to domestic and sexual violence 
from a community-driven context. The DVPP expands outreach and 
increases awareness by funding projects that provide victim advocacy, 
intervention, case coordination, policy development, community response 
teams, sexual assault examiner programs, and community and school 
education programs. From 2010-2015, the DVPI resulted in over 78,500 
direct service encounters including crisis intervention, victim 
advocacy, case management, and counseling services. More than 45,000 
referrals were made for domestic violence services, culturally-based 
services, and clinical behavioral health services. In addition, a total 
of 688 forensic evidence collection kits were submitted to federal, 
state, and tribal law enforcement.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                               Mary Smith
    Question 1. As you know, the Indian Health Service faces very real 
challenges in the State of Arizona, largely due to failing 
infrastructure. I'm pleased to see the significant commitment to the 
Phoenix Indian Medical Center and other Arizona projects in the IHS 
construction budget. Can you commit to finishing construction on the 
PIMC project in FY 2017 as well as other Arizona facilities, even 
ifCongress provides level funding for the construction budget?
    Answer. A comprehensive master planning study for the proposed 
replacement of the Phoenix Indian Medical Center (PIMC) began in 2000. 
This study was developed in partnership with the 39 Tribes in Arizona, 
Nevada, and the tribes in Utah. The Phoenix Area Indian Health Service 
and Tribal Leadership along with the congressional appropriation 
committees defined a multi-facility approach to addressing the 
healthcare needs overloading PIMC as the PIMC System. This PIMC System, 
comprised of three outlying ambulatory care centers (ACC), located in 
Gila River Southwest ACC at Komatke, Gila River Southeast ACC at 
Chandler, and PIMC NE ACC at Scottsdale and a central downtown Phoenix 
facility. The concept for the plan was that the outpatient workload 
would remain at these three outlying locations thus reducing the 
workload in the Phoenix central facility. The construction of the Gila 
River Southwest ACC facility has been completed and has been in service 
since January 2009. The Gila River Southeast ACC facility is currently 
under construction and the PIMC NE ACC facility is under design.
    The Phoenix Area IHS will conduct an analysis of the workload in 
all four locations after the last outlying facility is in service for 
at least one year. This will establish the workload baseline for 
planning for the downtown Phoenix facility consisting of an ambulatory 
care center and inpatient facility. Finishing construction of this PIMC 
system will not be completed in FY 2017. However, the Indian Health 
Service is committed to completing the entire PIMC System once the 
workload parameters are in place to plan, design and construct PIMC 
Central.
    Design funds have been requested in the President's FY2017 budget 
for the proposed replacement Whiteriver Hospital in Whiteriver, AZ. The 
Phoenix Area IHS is currently updating the planning documents.
    The proposed 7,088 square meter replacement facility for the Fort 
Yuma health clinic is fully funded for construction and is expected to 
be providing health care services in the summer of 2017.
    The proposed 14,000 square meter replacement healthcare facility 
for the Dilkon health center in Dilkon, AZ. has been funded to begin 
infrastructure work including a 39-mile waterline with design of the 
facility beginning in FY 2017.
    The proposed replacement facility for Bodaway Gap health clinic in 
Bodaway Gap, AZ., is scheduled for funding after FY 2017.
    The proposed replacement for the Sells Hospital in Sells, AZ., is 
the last project on the current priority list of outpatient clinics and 
is scheduled for funding after FY 2017.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. James Lankford to 
                          Lawrence S. Roberts
    Question 1. For much of the last century, the Bureau of Indian 
Affairs has served as the federal government's lead agency for programs 
serving American Indians and Tribes. However, there are also whole 
federal departments, such as the Department of Justice or the 
Department of Housing and Urban Development, that serve as subject 
matter experts for their service area. These departments often have 
greater resources and abilities to provide a service but they sometimes 
lack BIA's ability to communicate on a government-to- government level 
with tribal governments. How can we maximize the impact of federal 
services by pairing the abilities of both sides?
    Answer. The Administration seeks to bring an ``all-of-government 
approach'' to Indian Affairs by pairing Interior's relationship with 
tribal governments with the subject matter experts from other agencies. 
Through this effort we work closely with other federals agencies to 
enhance our own efforts and minimize duplication of services. The 
Department is also developing the Native One Stop site 
(www.NativeOneStop.gov) to allow tribes to view program opportunities 
available to them across all agencies.
    In addition, we are engaged in a concentrated effort with HUD, DOJ, 
USDA, and ED in coordination with the Office of Management and Budget, 
to develop interagency budget metrics around Native youth. This year we 
are setting baselines and beginning measure progress in six areas: 
educational outcomes; teacher housing; access to Internet; ICWA; teen 
suicide; and criminal justice. This effort is designed to better gauge 
the impact of our programs in these specific areas.

    Question 2. What actions do you take at a leadership level to 
ensure your department is not duplicating a tribal service provided by 
another department?
    Answer. The Department makes every effort to partner and work 
closely with other federal agencies and the White House Council on 
Native Affairs to ensure all of the programs are working together to 
reach common goals and not duplicating services.

    Question 3. Please provide a complete list of all programs and 
funding opportunities offered by your department for tribes and 
individual American Indians, their individual funding level, the 
metrics used by the department to gauge the program's effectiveness, 
and how the program meets these metrics.
    Answer. The attached Indian Affairs' Comprehensive Table is a 
listing of all available programs. For performance metrics, we have 45 
different performance measures that we use for both BIE and BIA. These 
include:

  <bullet> 9 measures within Justice Services
  <bullet> 13 measures within Indian Services
  <bullet> 21 measures within Trust Services
  <bullet> 1 measure within Indian Education
  <bullet> Highlights for Quarter 1 of FY2016 include:
    --Participants Earnings Gain: $10.09 per hour
    --Violent Crime per 100,000: 148.68 crimes
    --Loss Rates on DOI Guaranteed and Insured Loans: 2.44%
    --Roads in acceptable condition: 14.7%

    All programs and their corresponding measures and/or results data 
are included in the program section of Indian Affairs' budget 
justification to Congress. Performance metrics and achievements are 
also outlined in the DOI Annual Performance Plan and Report.
    The Department also provides input into the Native American 
Crosscut each fiscal year, which is a list of programs that benefit 
tribes and individuals across all federal agencies prepared by the 
Office of Management and Budget.

    Question 4. How does BIA work with to assist tribes in developing 
their own environmental rules for enforcement within the reservation or 
tribal boundaries?
    Answer. The BIA encourages tribes to develop their own 
environmental programs by providing information on federal laws and 
regulations and grant programs available to tribes. The BIA is also 
available to answer questions, provide training, and encourages tribes 
to attend training provided to BIA environmental personnel that might 
benefit their personnel. BIA environmental personnel are also available 
to assist and provide expertise and technical assistance.

    Question 5. If a tribe establishes their own environmental rules, 
can they be enforced in place of federal environmental rules on the 
tribal reservation or within the tribal boundaries, including both land 
held in trust and not held in trust?
    Answer. Several federal environmental statutes contain provisions 
under which federally recognized tribes may be treated in a ``similar 
manner as a state'' (TAS) for implementing and managing certain 
environmental programs on trust and restricted lands, including the 
Clean Water Act (CWA), the Safe Drinking Water Act (SDWA), and the 
Clean Air Act (CAA). To obtain TAS, a tribe must submit an application 
to EPA demonstrating that it meets the applicable statutory and 
regulatory requirements. Under these statutes, tribes must develop 
standards that are at least as protective as federal standards. For 
example, tribes that seek TAS to administer a Water Quality Standards 
program under the CWA must develop water quality standards at least as 
stringent as federal water quality standards.

    Question 6. Can a tribe elect to not enforce federal environmental 
rules on a reservation or on land held in trust? If so, how does this 
impact the issuance of permits by the federal government for mineral 
development?
    Answer. If a tribe does not have TAS to administer applicable 
federal environmental laws or where TAS is not available to tribes 
under certain statutes, the EPA or the appropriate regulatory federal 
agency implements and enforces federal laws.

    Question 7. Is land held in trust different than ``public land'' as 
defined in 43 U.S.C 1702(e)?
    Answer. Yes, public lands are held for the benefit of US citizens, 
tribal trust lands are held in trust for the beneficial use of a 
particular group of people: tribes. Tribal restricted fee lands are 
held in fee by the Tribe subject to federal restrictions on alienation. 
Congress specifically excluded lands held for the benefit of Indians, 
Aleuts, and Eskimos from the ``public land'' definition and provisions 
of the Federal Land Management and Policy Act (43 U.S.C 1701 et seq.).
    The Secretary of the Interior has delegated primary administrative 
responsibilities to the Bureau of Indian Affairs for lands held in 
either trust or restricted status. Other Interior bureaus may also have 
responsibilities on trust or restricted land delegated by the 
Secretary. For example, the Bureau of Land Management regulates 
operations on mineral leases, and the Office of Natural Resource 
Revenue collects royalties on such leases.

    Question 8. Are federal actions on land held in trust different 
than ``public lands'' as defined by 43 USC 1702(e)?
    Answer. Yes. Federal actions on public lands are governed by 
applicable statutes, along with Secretarial authorities to lease/
permit. Federal actions on land held in trust are also governed by 
applicable statutes and regulations, as well as different authorities 
to lease/permit. Landowner (individual Indians and Indian tribes) 
consent and compensation is usually required, as well as consideration 
for the best interests of the landowners.
    ``Public lands'' lay within the jurisdiction of the federal 
government for public use. Trust lands are different because the 
Federal government is the ``trustee'' for the lands which are held for 
use by the tribes or tribal individuals. Federal actions are taken as a 
trustee for the tribes, not the public at large.

    Question 9. What is the status of the Johnson O' Malley program and 
when will an updated count of students be put in place?
    Answer. The Johnson O'Malley (JOM) program continues to disburse 
funds based on the 1995 JOM student count of 271,884 students. BIE 
staff conducted an updated self-reported student count in 2012 and 
2014. In 2012 the student count was 321,273, and in 2014 the count was 
341,126. During tribal consultations that took place in December 2015, 
the question of funding methodology was brought forward and there was 
no consensus on which methodology was preferable. The Department 
requests guidance from the Congress regarding a funding methodology 
that will allow additional students and new contractors to be included.
    In order to change the funding methodology, Congressional action is 
needed to address two statutory requirements. JOM is considered Tribal 
Priority Allocation (TPA) funding, as such sections 450j-1(b)(2) and 
458cc(g)(3) of Title 25 of the United States Code prohibit a reduction 
in the amount of TPA funding in subsequent years unless one of five 
statutory conditions is met. Without Congress's concurrence, the Bureau 
would be required to fund all tribal contracts receiving funds based on 
their 1995 student count, regardless of the 2012 and/or 2014 counts. 
This could result in multi-tier funding with 1995 count contractors 
held harmless and the ``new'' (2014) contractors governed by a new 
methodology. The number of tiers could grow each year as new 
contractors were identified.
    Secondly, the current distribution methodology was set in statute 
during the 1989 appropriation process and congressional action is 
needed to change the methodology. Pub. L. 100-446, Title I, Sept. 27, 
1988, 102 Stat. 1795 provides: ``That notwithstanding any other 
provision of law, the amounts available for assistance to public 
schools under the Act of April 16, 1934 (48 Stat. 596), as amended (25 
U.S.C. 452 et seq.), shall be distributed on the basis of the formula 
recommended by the Assistant Secretary of Indian Affairs in a letter to 
the Committees on Appropriations dated June 27, 1988, except that for 
the fiscal year ending September 30, 1989, the minimum weight factor 
shall be 1.1 rather than 1.3 and for the fiscal year ending September 
30, 1990, the minimum weight factor shall be 1.2 rather than 1.3.''
                                 ______
                                 
*Response to the following questions was not available at the time this 
                         hearing went to print*
Questions to HUD
    Question 1. For much of the last century, the Bureau of Indian 
Affairs has served as the federal government's lead agency for programs 
serving American Indians and Tribes. However, there are also whole 
federal departments, such as the Department of Justice or the 
Department of Housing and Urban Development, that serve as subject 
matter experts for their service area. These departments often have 
greater resources and abilities to provide a service but they sometimes 
lack BIA's ability to communicate on a government-to-government level 
with tribal governments. How can we maximize the impact of federal 
services by pairing the abilities of both sides?
    Question 2. What actions do you take at a leadership level to 
ensure your department is not duplicating a tribal service provided by 
another department?
    Question 3. Please provide a complete list of all programs and 
funding opportunities offered by your department for tribes and 
individual American Indians, their individual funding level, the 
metrics used by the department to gauge the program's effectiveness, 
and how the program meets these metrics.

Questions to DOJ
    Question 1. For much of the last century, the Bureau of Indian 
Affairs has served as the federal government's lead agency for programs 
serving American Indians and Tribes. However, there are also whole 
federal departments, such as the Department of Justice or the 
Department of Housing and Urban Development, that serve as subject 
matter experts for their service area. These departments often have 
greater resources and abilities to provide a service but they sometimes 
lack BIA's ability to communicate on a government-to-government level 
with tribal governments. How can we maximize the impact of federal 
services by pairing the abilities of both sides?
    Question 2. What actions do you take at a leadership level to 
ensure your department is not duplicating a tribal service provided by 
another department?
    Question 3. Please provide a complete list of all programs and 
funding opportunities offered by your department for tribes and 
individual American Indians, their individual funding level, the 
metrics used by the department to gauge the program's effectiveness, 
and how the program meets these metrics.
    Question 4. Please provide documentation on how DOJ allocates the 
funding authorized by 42 USC 10601(g).
    Question 5. If DOJ does not fully allocate the funding authorized 
by 42 USC 10601(g), please explain why and what steps DOJ is taking to 
ensure the funding is fully utilized.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
